   SOUTHWEST BORDER
PROSECUTION INITIATIVE
REIMBURSEMENT PROGRAM
      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 08-22
            March 2008
         SOUTHWEST BORDER PROSECUTION INITIATIVE
               REIMBURSEMENT PROGRAM

                        EXECUTIVE SUMMARY

       The U.S. border with Mexico extends nearly 2,000 miles along the
southern borders of California, Arizona, New Mexico, and Texas. The
Department of Homeland Security, U.S. Customs and Border Protection, has
primary federal responsibility for detecting and preventing illegal entry into
the United States. At the same time, the Department of Justice (DOJ) plays
an important role in border enforcement through prosecution, detainment,
and incarceration of individuals who violate federal criminal laws related to
alien smuggling, firearms trafficking, illegal immigration, and illegal drug
importation.

       In 1994, U.S. Attorney Offices along the Southwest Border began to
establish partnerships with state and county prosecutors through which
states and local governments began prosecuting federally initiated drug
cases resulting from the illegal importation of controlled substances at the
Southwest Border. As the number of federally declined criminal cases
prosecuted by state and local governments began to increase, so did the
related financial and resource burden on the states and localities. As a
result, in fiscal year (FY) 1998, state and local prosecutors along the
Southwest Border began informing the DOJ that they would no longer be
able to prosecute federally initiated cases unless they received federal funds.
To address these concerns, in 2000 Congress passed Public Law 106-246 to
provide FY 2001 funding to state, county, parish, tribal, and municipal
governments to reimburse them for costs associated with the prosecution
and pre-trial detention of federally initiated illegal immigration and drug and
alien smuggling cases that subsequently are declined by the U.S. Attorneys
offices and instead referred to state and local jurisdictions. However, none
of the subsequent appropriations limit the types of federally initiated cases
that are allowable for reimbursement. As a result, any federally initiated
case that is declined by the U.S. Attorneys offices and subsequently
prosecuted by an eligible state or local jurisdiction is allowable for
reimbursement.

      Initially, the program was administered by the Executive Office for
United States Attorneys (EOUSA) in DOJ. However, in FY 2002 the
management of the Southwest Border Prosecution Initiative (SWBPI) was
transferred to the Office of Justice Programs (OJP), DOJ’s grant-making arm.
      From October 1, 2001, through September 31, 2006, OJP provided
reimbursements totaling $161.13 million to the four Southwest Border states
and local jurisdictions, as shown in Table 1.

                                 TABLE 1.
                   SWBPI REIMBURSEMENTS (DOLLARS IN MILLIONS)1

      STATES              FY02        FY03        FY04        FY05        FY06        TOTALS
 Arizona                $ 3.00      $ 3.41      $ 2.14      $ 1.70      $ 2.70     $ 12.95
 California               18.45      15.63       12.78       13.00       16.32        76.19
 New Mexico                5.75        8.45        6.54        6.26        3.59       30.58
 Texas                    11.77      11.07         6.82        7.04        4.71       41.41
 SWBPI Totals           $38.97      $38.55     $28.28      $28.00      $27.33      $161.13
Source: Office of Justice Programs

SWBPI Guidelines

      Eligible SWBPI applicants submit quarterly electronic applications for
reimbursement through the Bureau of Justice Assistance (BJA) SWBPI
website. On the reimbursement applications, SWBPI recipients list the total
number of cases in each of the three major categories based on the types of
services provided: (1) prosecution only, (2) pre-trial detention only, and
(3) both prosecution and pre-trial detention. The three major service
categories are further broken down into four reimbursement categories
based on the length of disposition: (1) 1 to 15 days, (2) 16 to 30 days,
(3) 31 to 90 days, and (4) over 90 days.2

      BJA does not require SWBPI applicants to provide documentation
supporting the number of cases submitted for reimbursement through the
electronic application. However, jurisdictions that receive SWBPI funds are
required to retain documentation supporting the reimbursement requests for
3 years from the date the application is approved.




         1
             Throughout this report, differences in the total amounts are due to rounding.
         2
          Case disposition is the length of time between a suspect’s arrest and the resolution
(e.g., dismissal, plea, conviction) of the criminal charges through a county or state judicial
process.



                                               - ii -
Reimbursement Amounts

      Each eligible case may receive the following maximum reimbursement,
based upon length of disposition, availability of funds, and the provision of
both prosecution services and pre-trial detention services.

                             TABLE 2.
                   MAXIMUM SWBPI REIMBURSEMENTS

                                                  MAXIMUM
              LENGTH OF DISPOSITION            REIMBURSEMENT
              1 to 15 Days                           $ 2,500
              16 to 30 Days                            5,000
              31 to 90 Days                            7,500
              Over 90 Days                            10,000
             Source: OJP

      To calculate the reimbursement amount for cases submitted for both
prosecution and pre-trial detention services, the length of the prosecution
takes precedence in calculating the case disposition category. For
prosecution only and pre-trial detention only cases, each eligible case may
receive 50 percent of the maximum reimbursement.

Case Eligibility

     To be eligible for reimbursement under the SWBPI program, each case
submitted must meet the following criteria.

   •   The case must be initiated by a federal law enforcement agency.

   •   The case must be declined for federal prosecution and referred to the
       local jurisdiction for prosecution.

   •   The case must be prosecuted by a state or local jurisdiction.

   •   The case must be disposed of during an eligible reporting period.

     In addition, on each quarterly application the jurisdiction’s Chief
Executive Officer (CEO) or designee must certify that the total amount
requested for reimbursement, when combined with other federal funding,
does not exceed 100 percent of the jurisdiction’s annualized costs for SWBPI
prosecution and pre-trial detention services. Further, the CEO or designee


                                     - iii -
must certify that the SWBPI claim has been adjusted to account for
additional prosecution and pre-trial detention funding received through other
federal programs.

Recent Guidance

      Our audit generally covered SWBPI reimbursements awarded from
FYs 2002 through 2006.3 Therefore, we used the SWBPI guidelines in effect
during the period covered by our audit when conducting our analysis.
However, in July 2007 OJP updated the SWBPI guidelines and made the
following changes:

   •   The new guidelines no longer state that recipients cannot receive
       reimbursements in excess of 100 percent of their actual annualized
       costs. Nonetheless, at the time SWBPI reimbursement applications
       are submitted, the jurisdiction’s CEO or designee is still required to
       certify that, “This application does not contain payment claims for
       cases already fully reimbursed by federal funds, or when combined
       with other federal reimbursement, grant, or payment funds, does not
       make payment claims in excess of 100 percent of the cost of
       prosecuting and or detaining case defendants in the reporting period.”

   •   The July 2007 guidelines no longer contain the statement that when a
       case is submitted under the “both” category, the prosecution timeline
       takes precedence in determining the case reimbursement category.
       However, the OJP application still allows for cases to be submitted
       under the “both” category rather than requiring that prosecution and
       pre-trial detention reimbursements be submitted separately.

   •   The July 2007 guidelines specify that new cases resulting from
       probation or parole violations and revocation hearings resulting from a
       previously reimbursed SWBPI case are not eligible for reimbursement.
       Further, extradition cases are also not eligible for reimbursement.
       Although none of these types of cases would have been eligible for
       reimbursement under the previous guidelines, the revised guidelines
       ensure that jurisdictions are aware of the fact that these types of
       cases are ineligible.




       3
        OJP has accepted applications for all of FY 2007, but as of January 31, 2008, had
not made any reimbursements for FY 2007 SWBPI submissions.



                                          - iv -
Prior Reports

      Prior to the initiation of this audit, the OIG conducted three previous
audits of individual SWBPI recipients to determine if the reimbursement
requests submitted were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of SWBPI.
The prior audits included review of the: (1) New Mexico Department of
Public Safety (New Mexico DPS); (2) Yuma County Attorney’s Office, Arizona
(Yuma County); and (3) Maricopa County Attorney’s Office, Arizona
(Maricopa County).4 Taken together, the prior SWBPI audits revealed
dollar-related findings totaling over $1.6 million.

       Additionally, for the past 8 years grant management has been
identified by the Office of the Inspector General (OIG) as one of DOJ’s top
10 management and performance challenges. Specifically, the OIG has
reported that grant management continues to be a challenge for the
following reasons:

   •   OIG reviews continue to find that many grantees do not submit
       required financial and progress reports or do not submit them in a
       timely manner;

   •   Numerous deficiencies continue to be found in DOJ’s monitoring of
       grantee activities;

   •   OIG audits found that grant funds were not regularly awarded in a
       timely manner and that grantees were slow to spend available monies;
       and

   •   OIG audits of grants have resulted in significant dollar-related findings.

     Although SWBPI is a reimbursement program rather than a grant
program, in our judgment the same concerns related to OJP’s management
and oversight of the program exist.

Audit Approach

       We initiated this audit of SWBPI to:

   •   Evaluate OJP’s administration and management of SWBPI
       reimbursements;


       4
           Our audit of the New Mexico DPS included the 2nd, 3rd, and 11th Judicial Districts.



                                             -v-
   •   Identify additional federal programs with overlapping objectives; and

   •   Determine if SWBPI reimbursement requests submitted by eligible
       jurisdictions are allowable, supported, and in accordance with
       applicable laws, regulations, guidelines, and terms and conditions of
       the SWBPI program.

      The audit generally covered, but is not limited to, SWBPI
reimbursements awarded from FYs 2002 through 2006. Audit work was
conducted at OJP; the Office of National Drug Control Policy (ONDCP); the
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF); the Drug
Enforcement Administration (DEA); the Federal Bureau of Investigation
(FBI); and EOUSA.

      Additionally, we conducted seven external audits of SWBPI recipients
to determine if SWBPI reimbursements were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI program. The external audits were conducted at
the following selected SWBPI recipients: (1) New Mexico DPS; (2) Yuma
County; (3) Maricopa County; (4) El Paso County Auditor’s Office, Texas
(El Paso County); (5) San Diego District Attorney’s Office, California
(San Diego); (6) Brooks County, Texas (Brooks County); and (7) City and
County of San Francisco, California (San Francisco).

Results in Brief

      We found that OJP does not adequately oversee the SWBPI program.
Specifically:

   •   OJP does not require applicants to provide documentation supporting
       reimbursement requests. In our judgment, most of the unallowable
       and unsupported reimbursements totaling $15.57 million, or
       28 percent of the total reimbursements audited, identified in our seven
       external audits could have been avoided if OJP required applicants to
       submit supporting documents.5

   •   OJP does not review the applications for accuracy or monitor recipients
       to determine the eligibility of cases submitted for reimbursement.


       5
          It should be noted that the dollar-related findings identified in our reviews of the
seven SWBPI recipients were addressed in separate external audit reports. Thus, we are
not offering any recommendations in this report specific to the $15.57 million in unallowable
and unsupported reimbursements and $27,500 in funds to be put to better use.



                                            - vi -
   •   Reimbursements are not linked to actual costs incurred by the
       jurisdictions to prosecute federally declined-referred criminal cases.6

   •   OJP has not taken action to identify potential duplicate funding
       between the SWBPI program and other federally funded prosecution
       and pre-trial detention programs.

      As noted above, SWBPI is intended to reimburse state and local
governments for their costs associated with the prosecution and pre-trial
detention of federally initiated criminal cases. Accordingly, on every SWBPI
reimbursement application, the jurisdiction’s CEO or designee certifies that
the SWBPI claim, combined with other federal funding, does not exceed
100 percent of the cost of prosecuting and detaining case defendants in the
reporting period. However, we found that none of the seven jurisdictions
included in our audit maintained any documentation to support costs
associated with SWBPI cases submitted for reimbursement, resulting in
reimbursements totaling $49.78 million in excess of supported annualized
costs. In our judgment, this is not consistent with the intent of the program
to reimburse states and localities for their costs.

       Additionally, on every SWBPI reimbursement application the
jurisdiction’s CEO or designee is required to certify that the SWBPI claim has
been adjusted to account for additional prosecution and pre-trial detention
funding received through other federal programs. However, we found that
with the exception of El Paso County, none of the jurisdictions included in
our audit who received additional federal funding for prosecution and
pre-trial detention services took any steps to ensure that the SWBPI
reimbursements, when combined with additional federal funding, did not
exceed the cost to prosecute the SWBPI cases.7

       In our judgment, the jurisdictions included in our audit made
unsupported certifications in each quarterly SWBPI reimbursement
application that: (1) the total federal funds provided to the jurisdiction for
SWBPI cases during the reporting period did not exceed 100 percent of the
jurisdiction’s annualized costs for prosecution services; and (2) the SWBPI

       6
          Declined-referred is a term used in the SWBPI guidelines to refer to a point in time
during a federal investigation when a U.S. Attorney or federal law enforcement official
decides not to pursue federal criminal charges against a defendant (declination) and
requests that a state or local jurisdiction prosecute the defendant for violating state or local
criminal statutes (referral).
       7
         Although El Paso County did not track its costs to prosecute SWBPI cases,
$1.51 million was deducted from its SWBPI reimbursement requests in an attempt to ensure
that federal funding did not exceed 100 percent of the costs associated with the cases
submitted.



                                            - vii -
claim has been adjusted to account for additional funding received through
other federal reimbursement or grant programs.

      Finally, our external audits of the seven SWBPI recipients, who
together received reimbursements totaling $55.11 million over a 5-year
period, identified unallowable and unsupported SWBPI reimbursements of
$15.57 million, which equates to 28 percent of the total reimbursements.8

      The importance of the issues identified in our audit are reinforced by
the fact that, as of the 4th quarter of FY 2006, OJP was only able to
reimburse SWBPI applicants for 44 percent of the total maximum
reimbursement amount because reimbursement requests exceeded available
funding. If OJP ensured that only eligible cases were reimbursed and
reimbursements were linked to the actual costs to prosecute and detain
SWBPI defendants, additional funds would be available to more fully
reimburse existing SWBPI jurisdictions for the actual costs of eligible cases.9

      In our report, we make 13 recommendations to improve OJP’s
management of the SWBPI program to ensure that reimbursement requests
are limited to eligible cases; linked to and do not exceed actual costs; and
adjusted to account for funds received from other federal prosecution and
detention funding programs.

      Our report contains detailed information on the full results of our
review of the Southwest Border Prosecution Initiative Reimbursement
Program. The remaining sections of this Executive Summary describe in
more detail our audit findings.

OJP’s Administration and Oversight of the Reimbursements

      Our audit results revealed that OJP is not adequately overseeing the
SWBPI program. We found that OJP does not require applicants to provide
documentation supporting reimbursement requests. In our judgment, most
of the unallowable and unsupported reimbursements totaling $15.57 million,
or 28 percent of the total reimbursements audited, identified in our seven


      8
        We also identified funds to be put to better use totaling $27,500 related to
unsupported and ineligible cases submitted for reimbursement that had not yet been paid.
      9
         No jurisdictions were reimbursed in the 4th quarter of FY 2004 because no funds
were available. In addition, for the quarters ended December 31, 2004, March 31, 2005,
June 30, 2005, September 30, 2005, December 31, 2005, March 31, 2006, June 30, 2006,
and September 30, 2006, SWBPI recipients received pro-rata reimbursements of
49.29 percent, 44.08 percent, 47.40 percent, 50.16 percent, 53.18 percent, 47.61 percent,
43.09 percent, and 44.05 percent respectively.



                                         - viii -
external audits could have been avoided if OJP required applicants to submit
supporting documents.10 Additionally, OJP does not review SWBPI
reimbursement applications for accuracy or conduct any monitoring activities
of recipients to determine the eligibility of cases submitted for
reimbursement.

       In our judgment, OJP must require SWBPI recipients to submit a list of
cases in support of the reimbursement requests. This list should include
sufficient information to verify the eligibility of the cases submitted for
reimbursement, including: (1) case number, (2) defendant name, (3) arrest
date, (4) disposition date, (5) initiating federal law enforcement agency, and
(6) referring federal agency. Additionally, for pre-trial detention
reimbursements the case list should include the defendant booking date and
release date. This is consistent with the requirements of other
reimbursement programs administered by OJP, such as the State Criminal
Alien Assistance Program (SCAAP), which requires a list of inmates,
identifying information, and the length of detention.

      Additionally, OJP should review reimbursement requests and the
supporting case list to ensure that the number of cases submitted for
reimbursement is accurate and that all cases submitted are eligible for
reimbursement. Further, OJP should conduct monitoring activities of SWBPI
recipients.

Reimbursement Not Linked To Actual Costs

      We found that reimbursements were not based on actual costs
incurred by the jurisdictions to prosecute federally declined-referred criminal
cases. We asked OJP officials to provide information on the methodology
used to develop the reimbursement categories and corresponding amounts.
However, they were unable to provide us with information regarding the
basis used in establishing the reimbursement amounts.

      We also conducted limited testing at the seven SWBPI recipients
included in our audit to determine the correlation between reimbursement
categories and actual costs for prosecution and detention. Based on our
analysis, we found that SWBPI recipients received reimbursements totaling
$49.78 million in excess of supported annualized costs. The significant
amount of SWBPI reimbursements in excess of supported costs was

       10
           It should be noted that the dollar-related findings identified in our reviews of the
seven SWBPI recipients were addressed in separate external audit reports. Thus, we are
not offering any recommendations in this report specific to the $15.57 million in unallowable
and unsupported reimbursements and $27,500 in funds to be put to better use.



                                            - ix -
predominately due to the fact that none of the jurisdictions included in our
audit tracked or maintained data supporting the costs associated with
prosecuting SWBPI cases. However, each jurisdiction was able to provide
documentation to support their actual cost per day for pre-trial detention
services. As a result, we were able to calculate the actual annualized
pre-trial detention costs for SWBPI cases.

       Pursuant to the FY 2002 Appropriations Act and all subsequent DOJ
appropriations, SWBPI is intended to reimburse states and localities for
prosecution and pre-trial detention costs associated with federally initiated
criminal cases. Accordingly, on each SWBPI application the recipient
certified that total federal reimbursements did not exceed 100 percent of
actual prosecution and pre-trial detention costs for SWBPI cases.
Nevertheless, as noted above, we found that SWBPI recipients received
reimbursements of $49.78 million in excess of supported costs. In our
judgment, this is inconsistent with a statutory scheme that is intended to
reimburse recipients for actual costs.

       In our view, OJP should obtain sufficient cost data from each SWBPI
recipient to ensure that reimbursements are linked to actual costs associated
with SWBPI cases. We do not believe it necessary for SWBPI recipients to
create elaborate cost accounting systems to determine the actual costs for
each case. However, each recipient should at least track and maintain
sufficient data on the costs associated with SWBPI cases to support its
certification that total federal funds received do not exceed 100 percent of
the annualized costs for its SWBPI cases. This is consistent with the
requirements of other reimbursement programs administered by OJP, such
as SCAAP, which requires that recipients provide actual cost information to
determine the per day reimbursement rate.

      We also found the reimbursements were not linked to actual costs
because of the current policy of basing reimbursements for cases submitted
under the “both” prosecution and pre-trial detention category on the number
of days to prosecute the case, regardless of the length of time the defendant
was detained. Our analysis of cases submitted under the over-90 day “both”
category revealed that on average pre-trial detention services for 69 percent
of these cases would have been reimbursed at a lesser amount based on the
number of days the defendant was detained.

      Additionally, prosecution services are reimbursed at the same amounts
as pre-trial services, even though there is no evidence that prosecution and
pre-trial detention costs are similar and therefore should be reimbursed at
the same rate. Further, there is no evidence that these amounts accurately



                                     -x-
reflect the actual average prosecution and detention costs for each
Southwest Border jurisdiction.

       As stated previously, none of the seven jurisdictions included in our
audit tracked the costs to prosecute SWBPI cases. However, we were able
to obtain the daily pre-trial detention costs for six of the seven
jurisdictions.11 Based on our analysis of the daily pre-trial detention rates,
we determined that daily detention rates among the six jurisdictions ranged
from $110.69 per day in San Diego, to $46.00 per day in Brooks County, a
difference of $64.69 per day. We also found that the average daily
detention reimbursement rate among the six jurisdictions included in our
audit was $71.57. However, the average daily SWBPI detention
reimbursements for the 1 to 15, 16 to 30, and 31 to 90 day reimbursement
categories are $206.98, $112.79, and $67.97 respectively, which in general
is significantly higher than the actual average daily detention rates for the
SWBPI recipients.

       SWBPI reimbursements are also based on the number of days the case
was open rather than the time and effort spent on prosecuting the case
which, in our judgment, does not accurately reflect actual prosecution costs
because SWBPI cases vary in complexity. For example, in a simple case
related to the possession of a controlled substance by a sole defendant, the
prosecutor may expend very little time and effort, compared to a complex
case with multiple defendants that may involve significantly more time and
effort on the part of the prosecutor. However, the trial date for both cases
may be set for more than 90 days after the defendant was arrested.
Therefore, both cases would be reimbursed at the “over 90 day” rate, even
though the actual costs associated with prosecuting the cases were vastly
different.

      Finally, in our judgment using the number of days the defendant is
detained is an accurate measure of the pre-trial detention costs for SWBPI
cases. However, because SWBPI reimbursements are based on a broad
range of days rather than the actual number of days, generally
reimbursements for pre-trial detention services far exceed actual costs. For
example, for pre-trial detention only cases that fall into the 1 to 15 day
reimbursement category, the daily pre-trial detention reimbursements range
from $625 per day to $83 per day; the daily pre-trial detention
reimbursements for the 16 to 30 day category range from $156 per day to
$83 per day; and the daily pre-trial detention reimbursements for the 31 to
90 day category range from $121 per day to $42 per day depending on the

       11
          We did not obtain daily pre-trial detention costs from the New Mexico DPS
because it only submits reimbursement requests for prosecution services.



                                          - xi -
number of days the defendant was actually detained. However, the average
daily detention rate for the jurisdictions included in our audit was $71.57 per
day. Therefore, using the broad range of days rather than the actual
number of days for SWBPI pre-trial detention reimbursements can result in
reimbursements far in excess of actual costs.

       In sum, as a result of not linking reimbursement rates to actual costs,
jurisdictions may receive reimbursements in excess of their actual costs. As
of the 4th quarter of FY 2006, SWBPI applicants only received 44 percent of
the maximum reimbursement amount because reimbursement requests
exceeded available funding.12 If OJP ensured that only eligible cases were
reimbursed and reimbursements were linked to the actual costs to prosecute
and detain SWBPI defendants, additional funds would be available to more
fully reimburse actual costs for eligible cases.

Additional Federal Programs with Overlapping Objectives

       At the time the SWBPI reimbursement applications are submitted, the
jurisdiction’s CEO or designee is required to certify that the SWBPI claim has
been adjusted to account for additional prosecution and pre-trial detention
funding received through other federal programs. We found that only one of
the seven jurisdictions included in our audit took steps to adjust their claims
to account for additional funding from overlapping federal programs, and
that OJP has not taken action to identify potential duplicate funding between
the SWBPI program and other federal programs.

      We identified three major federal programs that provide funding to
state and local jurisdictions for prosecution and detention services, each of
which may partially duplicate funding provided through the SWBPI program.
These programs are ONDCP High Intensity Drug Trafficking Area (HIDTA)
Drug Prosecution Initiatives, OJP’s Edward Byrne Memorial Justice Assistance
Grant Program (Byrne Grant Program), and the Department of Homeland
Security, Bureau of Immigration and Customs Enforcement (DHS ICE),
SCAAP.13


      12
          No jurisdictions were reimbursed in the 4th quarter of FY 2004 because no funds
were available. In addition, for the quarters ended December 31, 2004, March 31, 2005,
June 30, 2005, September 30, 2005, December 31, 2005, March 31, 2006, June 30, 2006,
and September 30, 2006, SWBPI recipients received pro-rata reimbursements of
49.29 percent, 44.08 percent, 47.40 percent, 50.16 percent, 53.18 percent, 47.61 percent,
43.09 percent, and 44.05 percent respectively.
      13
         The Violence Against Women and Department of Justice Reauthorization Act of
2005 merged the Byrne Grant Program with the Local Law Enforcement Block Grant
Program (LLEBG) to create the Edward Byrne Memorial Justice Assistance Grant Program.



                                         - xii -
Federal Prosecution Funding

      In addition to SWBPI reimbursements, we determined that six of the
seven jurisdictions included in our audit also received HIDTA, Byrne grant,
and other federal prosecution funds totaling $27 million during the review
period, as shown in Table 3.14

                          TABLE 3.
       PROSECUTION GRANTS RECEIVED BY SWBPI RECIPIENTS
                                   (DOLLARS IN MILLIONS)


           SITE             HIDTA            BYRNE           OTHER            TOTAL

 El Paso County             $ 2.28               -          $ 2.07           $ 4.35

 New Mexico DPS               2.64               -             6.07          $ 8.71

 Maricopa County              1.64            4.70               -           $ 6.34

 Yuma County                  1.64            1.78               -           $ 3.41

 San Diego                    2.40               -             0.13          $ 2.52

 San Francisco                 -              1.86               -           $ 1.86

 Brooks County                 -                 -               -               -

        TOTAL             $10.60           $ 8.34           $ 8.27          $27.19

Source: OJP, ONDCP, and SWBPI recipients

       With the exception of El Paso County, none of the six other
jurisdictions included in our audit took steps to ensure that the SWBPI
reimbursements, when combined with additional federal funding received for
prosecution and pre-trial detention services, did not exceed the cost to
prosecute the SWBPI cases. Although El Paso County did not track its costs
to prosecute SWBPI cases, it deducted $1.51 million from its SWBPI
reimbursement requests in an attempt to ensure that federal funding did not
exceed 100 percent of the costs to prosecute the SWBPI case.



      14
         The other grants are Criminal Enterprise Unit Grant, Drug Prosecution Grant,
Rural Domestic Violence Grant, and the Community Gun Violence Program.



                                          - xiii -
Federal Detention Funding

       OJP also administers SCAAP in conjunction with the DHS ICE. SCAAP
provides federal payments to states and localities that incur correctional
officer salary costs for incarcerating undocumented criminal aliens. Since
the SWBPI program also includes reimbursement for pre-trial detention
services, we looked at the possibility of duplicate funding between SCAAP
and the SWBPI.

      We found that four of the seven jurisdictions included in our audit
received SCAAP funds totaling $95,559 for pre-trial detention services
provided in SWBPI cases submitted for reimbursement.15 However, we
found that none of the jurisdictions had taken any action to ensure they
were not receiving duplicate SCAAP funds for these same cases.

      In our judgment, the jurisdictions included in our audit made
unsupported certifications in each quarterly SWBPI reimbursement
application because they did not adjust their claims to account for the total
additional funding received through other federal reimbursement or grant
programs.16

      We met with OJP officials to discuss the possibility of duplicate funding
between the SWBPI program and other federal programs that provide
funding for prosecution and pre-trial detention services. Based on our
discussion, we found that OJP has not taken any action to identify any
potential duplicate funding between the three programs. Specifically, the
OJP official responsible for both the SWBPI program and SCAAP stated that
there is not enough information collected from the SWBPI reimbursements
to identify any such duplicate funding.

      In our opinion, OJP should ensure that recipients make the necessary
adjustments to the SWBPI applications to account for other federal
prosecution and pre-trial detention funding. In addition, OJP should review

       15
          We did not analyze possible duplicate SCAAP funding for the New Mexico DPS
because it only submits reimbursement requests for prosecution services. As a result, our
audit only included SWBPI reimbursements for prosecution services. SWBPI pre-trial
detention reimbursement requests are submitted through the State of New Mexico’s
counties. Also, we did not analyze possible duplicate funding for Brooks County or San
Francisco. Brooks County did not receive SCAAP funding between FYs 2002 through 2006
and San Francisco did not provide a listing of SWBPI cases submitted for reimbursements.
       16
          Although El Paso County did not track its costs to prosecute SWBPI cases, it
deducted $1.51 million from its SWBPI reimbursement requests in an attempt to ensure
that federal funding did not exceed 100 percent of the costs to prosecute the SWBPI case.
However El Paso County did not make any adjustments for SCAAP payments they received.



                                          - xiv -
SWBPI reimbursement applications to identify potential duplicate funding
requests.

Allowability of Reimbursements

      We conducted seven external audits of individual SWBPI recipients to
determine if SWBPI reimbursements were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI program. Our audits covered SWBPI
reimbursements totaling $55.11 million and identified unallowable and
unsupported SWBPI reimbursements of $15.57 million, which equates to
28 percent of the total reimbursements.17 In our judgment, the significant
amount of dollar-related findings identified during our audits of SWBPI
recipients is due in part to the fact that OJP is not adequately monitoring the
SWBPI program. Specifically,

   •   Reimbursement requests were not always supported by the master
       case list resulting in excess reimbursements totaling $5.92 million.18

   •   339 cases were submitted for reimbursement in the wrong quarter
       resulting in questioned costs of $793,933.

   •   1,637 cases were not eligible for reimbursement, resulting in
       questioned costs totaling $8.28 million and funds to be put to better
       use totaling $27,500, as shown in Table 4.




       17
           In addition, we identified funds to be put to better use totaling $27,500 related to
unsupported and ineligible cases submitted for reimbursement that had not yet been paid.
The questioned costs of $15.57 million and funds to be put to better use of $27,500 were
previously addressed in our external audit reports on the seven SWBPI recipients included in
our audit.
       18
          Of the $5.92 million in excess reimbursements, $5.41 million was specific to
San Francisco. Although, San Francisco provided two separate lists in support of the SWBPI
cases submitted for reimbursement, according to San Francisco officials neither list was
representative of the SWBPI cases submitted for reimbursement because the SWBPI
submissions were not based on actual cases. As a result, we found that all of the SWBPI
reimbursements submitted by San Francisco were not supported.




                                            - xv -
                            TABLE 4.
        SUMMARY OF FINDINGS FROM PRIOR OIG SWBPI AUDITS

                                                         DEFENDANT
                     NOT        RECORD       DUPLICATE      NOT
                                                                          TOTALS
                FEDERALLY      RETENTION     DEFENDANT   DETAINED
                INITIATED      PROBLEMS      SUBMITTED   OVERNIGHT
    TOTAL
  NUMBER OF          985           208         142         302            1,637
    CASES
   TOTAL
 QUESTIONED      $5,164,302     $826,003      $888,517   $1,399,134   $8,277,956
   COSTS
    TOTAL
   FUNDS TO      $    17,500      $ 10,000           0           0    $    27,500
  BETTER USE
 Source: Prior OIG SWBPI audits

       This finding further demonstrates that OJP should require SWBPI
recipients to submit a list of cases in support of reimbursement requests.
Additionally, OJP should review reimbursement requests and the supporting
case list to ensure that the number of cases submitted for reimbursement is
accurate and that all cases submitted are eligible for reimbursement.

      Finally, at each of the seven sites included in our audit, we asked the
responsible officials for feedback on OJP’s administration of the SWBPI
program. Officials in all seven jurisdictions stated that OJP has not provided
any training on the SWBPI guidelines.

       Based on the results of our external audits and the comments we
received from the seven jurisdictions, OJP needs to provide training to the
participating jurisdictions to help clarify the requirements of the SWBPI
program.

Recommendations

     The OIG made 13 recommendations to improve OJP’s management of
the SWBPI program to ensure that:

   •   reimbursement requests only include eligible cases;

   •   reimbursement amounts are linked to actual costs; and




                                         - xvi -
•   reimbursements do not exceed actual costs and are adjusted to reflect
    other federal prosecution and detention funding received by SWBPI
    participants.




                                - xvii -
This page intentionally left blank.




          - xviii -
           SOUTHWEST BORDER PROSECUTION INITIATIVE
                 REIMBURSEMENT PROGRAM

                                TABLE OF CONTENTS
INTRODUCTION ................................................................................ 1

       Background ...............................................................................1
       Executive Office for United States Attorneys ................................... 2
       Office of Justice Programs ............................................................ 3

       SWBPI Guidelines .....................................................................4
       Reimbursement Amounts ............................................................. 4

       Case Eligibility .............................................................................5

       Recent Guidance .......................................................................7

       Additional Federal Prosecution and Detention Funding .............8
       High Intensity Drug Trafficking Area Drug Prosecution Initiatives ...... 8
       Edward Byrne Memorial Justice Assistance Grant Program................ 8
       State Criminal Alien Assistance Program ........................................ 9

       Prior Reports.............................................................................9

       Audit Approach .......................................................................10

FINDINGS AND RECOMMENDATIONS.............................................. 13

I.     ADMINISTRATION AND OVERSIGHT OF REIMBURSEMENTS ....13
       SWBPI Program Oversight ..................................................... 14
       Supporting Documentation Not Required...................................... 14
       Reimbursement Requests Not Reviewed....................................... 14
       Monitoring Activities Not Conducted............................................. 15
       External Audits Identified Unallowable and Unsupported
           Reimbursements................................................................. 16
       SWBPI Reimbursement Not Linked to Actual Costs ................ 16
       Reimbursements in Excess of Supported Costs ............................. 19
       Analysis of SWBPI Reimbursements for the “Both” Category ........... 22
       Analysis of Reimbursements for Pre-Trial Detention ....................... 23
       Reimbursements Based On Days Rather Than Time and Effort ........ 25
       Conclusion.............................................................................. 29
       Recommendations.................................................................. 31

II.    ADDITIONAL FEDERAL PROGRAMS WITH OVERLAPPING
       OBJECTIVES ............................................................................33
       Additional Federal Prosecution and Detention Funding .......... 33
       High Intensity Drug Trafficking Area Drug Prosecution Initiatives .... 34
       Edward Byrne Memorial Justice Assistance Grant Program.............. 34
       State Criminal Alien Assistance Program ...................................... 35
       Analysis of Additional Federal Prosecution Funding ............... 36
       Analysis of Additional Federal Detention Funding .................. 37
       Recommendations.................................................................. 39

III.   ALLOWABILITY OF REIMBURSEMENTS ....................................41
       Accuracy of Reimbursements ................................................. 42
       Case Eligibility........................................................................ 43
       Feedback From SWBPI Recipients .......................................... 46
       Recommendation ................................................................... 46

STATEMENT ON INTERNAL CONTROLS............................................ 47

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 49

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 51

APPENDIX II - SWBPI REIMBURSEMENT IN EXCESS OF
    SUPPORTED COSTS ................................................................ 53

APPENDIX III - SWBPI REIMBURSEMENTS BY RECIPIENT ............. 55

APPENDIX IV - OJP'S RESPONSE TO THE DRAFT REPORT ............... 57

APPENDIX V - ANALYSIS AND SUMMARY OF ACTIONS
    NECESSARY TO CLOSE THE REPORT ....................................... 63
                                   INTRODUCTION

       The U.S. border with Mexico extends nearly 2,000 miles along the
southern borders of California, Arizona, New Mexico, and Texas. The
Department of Homeland Security, U.S. Customs and Border Protection, is
the federal agency with primary responsibility to detect and prevent illegal
entry into the United States. In Fiscal Year (FY) 2006, U.S. Customs and
Border Protection processed an average of 1.1 million passengers and
pedestrians, and 70,900 truck, rail, and sea containers entering the United
States each day. Additionally, on a typical day in FY 2006, U.S. Customs
and Border Protection executed an average of 2,984 apprehensions for
illegal entry into the United States, made 63 arrests at the ports of entry,
and seized 5,557 pounds of narcotics.

       While U.S. Customs and Border Protection has the responsibility of
guarding the national borders, the Department of Justice (DOJ) also plays a
vital role in protecting the United States through prosecution, detainment,
and incarceration of those individuals who violate federal criminal laws. As a
result, drug cases resulting from the illegal importation of controlled
substances at U.S. borders were typically prosecuted exclusively by U.S.
Attorneys in federal courts.

Background

       The Southwest Border Prosecution Initiative (SWBPI) provides funding
to state, county, parish, tribal, and municipal governments for costs
associated with the prosecution and pre-trial detention of these federally
initiated criminal cases that are declined by the U.S. Attorneys offices and
referred to state and local jurisdictions for prosecution. In late 1994, the
U.S. Attorneys and state and local prosecutors began establishing
partnerships through which the federal government referred to state and
local governments criminal drug cases involving the illegal importation of
controlled substances at the Southwest Border, known as federally
declined-referred criminal cases.19 These partnerships allowed the
U.S. Attorneys to focus on addressing major drug trafficking organizations
and prosecuting deported criminal aliens who illegally returned to the United
States. However, as state and local governments began to prosecute a
growing number of federally declined-referred criminal cases, these entities
experienced an increasing burden on their financial and personnel resources.
       19
           Declined-referred is a term used in the SWBPI guidelines to refer to a point in
time during a federal investigation when a U.S. Attorney or federal law enforcement official
decides not to pursue federal criminal charges against a defendant (declination) and
requests that a state or local jurisdiction prosecute the defendant for violating state or local
criminal statutes (referral).


                                           -1-
       In FYs 1998 and 1999, the counties along the Southwest Border,
initiated by El Paso County, Texas, began notifying the U.S. Attorneys’
Offices (USAO) and the Executive Office for United States Attorneys
(EOUSA) that they would no longer be able to prosecute federally
declined-referred criminal cases unless they received federal funds to help
support these efforts. As a result, in FY 2001 Congress appropriated
$24 million dollars “. . . to reimburse county and municipal governments
only for Federal costs associated with the handling and processing of illegal
immigration and drug and alien smuggling cases.”20 The reimbursement
program was initially administered by the Executive Office for United States
Attorneys (EOUSA).

Executive Office for United States Attorneys

      EOUSA was created to provide a liaison between DOJ and the 93 U.S.
Attorneys located throughout the 50 states, the District of Columbia, Guam,
the Northern Marianas Islands, Puerto Rico, and the U.S. Virgin Islands.

       EOUSA received $12 million in FY 2001 to reimburse county and
municipal governments in California, Texas, Arizona, and New Mexico for
handling and processing federally initiated drug cases along the Southwest
Border. EOUSA provided each state with an equal share of funds to cover
costs associated with court costs, administrative staff, courtroom
technology, and the building of holding spaces. The original appropriation
was supplemented, later in FY 2001, by an additional $10 million to Texas
and $2 million to Arizona, and the legislation authorized reimbursements
directly to the State of New Mexico.

      In FY 2002, management of the SWBPI program was transferred to
the Office of Justice Programs (OJP). Specifically, the 2002 Departments of
Commerce, Justice, State, the Judiciary, and Related Agencies
Appropriations Act (FY 2002 Appropriations Act) authorized “$50,000,000 for
the Southwest Border Prosecutor Initiative . . . to reimburse state, county,
parish, tribal, or municipal governments only for federal costs associated
with the prosecution of criminal cases declined by local U.S. Attorneys
Offices.”21




      20
           Pub. L. No. 106-246 (2001).
      21
           Pub. L. No. 107-77 (2001).



                                         -2-
Office of Justice Programs

      According to its website, OJP provides federal leadership in developing
the nation’s capacity to prevent and control crime, administer justice, and
assist crime victims. OJP carries out this mission by forming partnerships
with other federal, state, and local agencies, as well as national community
based organizations. OJP programs seek to address crime, substance abuse,
family violence, youth crime, crime victims, and law enforcement initiatives.

       The Bureau of Justice Assistance (BJA), a component of OJP,
administers the SWBPI program. Its stated mission is to provide leadership
and assistance to local criminal justice strategies to make U.S. communities
safer. To accomplish its mission, BJA provides funding, training, technical
assistance, and information to state and community criminal justice
programs and emphasizes the coordination of federal, state, and local
efforts.

       As of February 1, 2008, the SWBPI program provided reimbursements
to 82 state, county, parish, tribal, and municipal governments for 41,567
cases totaling over $161 million. Total SWBPI reimbursements received by
the four Southwest Border states are shown in Table 1, and a detailed listing
of SWBPI reimbursements for each SWBPI recipient is shown in Appendix
III.22

                                TABLE 1.
                  SWBPI REIMBURSEMENTS (DOLLARS IN MILLIONS)23

      STATES            FY02         FY03       FY04        FY05        FY06        TOTALS
      Arizona         $ 3.00      $ 3.41      $ 2.14      $ 1.70      $ 2.70      $ 12.95
     California        18.45       15.63       12.78       13.00       16.32       76.19
   New Mexico           5.75       8.45        6.54        6.26        3.59        30.58
      Texas            11.77       11.07       6.82        7.04        4.71        41.41
 SWBPI Totals         $38.97      $38.55      $28.28      $28.00      $27.33      $161.13
Source: Office of Justice Programs




       22
          OJP has accepted applications for all the quarters of FY 2007, but as of January
31, 2008 had not yet made any reimbursements for FY 2007 SWBPI submissions.
Therefore, FY 2006 was the most recent data available.
       23
            Throughout this report, differences in the total amounts are due to rounding.



                                            -3-
SWBPI Guidelines

      Eligible SWBPI participants submit quarterly electronic applications for
reimbursement through BJA’s SWBPI website. On the reimbursement
applications, SWBPI applicants are required to list the total number of cases
in each of three major categories based on the types of services provided:
(1) prosecution only, (2) pre-trial detention only, and (3) both prosecution
and pre-trial detention. The three major service categories are further
broken down into four reimbursement categories based on the length of
disposition: (1) 1 to 15 days, (2) 16 to 30 days, (3) 31 to 90 days, and
(4) over 90 days.24

      BJA does not require SWBPI applicants to provide documentation
supporting the number of cases submitted for reimbursement through the
electronic application. However, jurisdictions that receive SWBPI funds are
required to retain documentation supporting the reimbursement requests for
3 years from the date the application was approved.

Reimbursement Amounts

      Each eligible case may receive the following maximum reimbursement,
based upon length of disposition, availability of funds, and the provision of
both prosecution services and pre-trial detention services.

                                TABLE 2.
                      MAXIMUM SWBPI REIMBURSEMENTS

                                                           MAXIMUM
                LENGTH OF DISPOSITION                   REIMBURSEMENT
                1 to 15 Days                                   $ 2,500
                16 to 30 Days                                     5,000
                31 to 90 Days                                     7,500
                Over 90 Days                                     10,000
              Source: OJP

      To calculate the reimbursement amount for cases submitted for both
prosecution and pre-trial detention services, the length of the prosecution
takes precedence in determining a case’s disposition category.

       24
           Case disposition is the length of time between a suspect’s arrest and the
resolution (e.g., dismissal, plea, conviction) of the criminal charges through a county or
state judicial process.



                                          -4-
       For prosecution only cases, each eligible case may receive 50 percent
of the maximum reimbursement. To be eligible for 50 percent of the
maximum per case reimbursement for prosecution only, an eligible
jurisdiction must provide one or more of the following for each case:
(1) judicial services, (2) prosecution services, or (3) defense services.

       For pre-trial detention only cases, each eligible case may receive
50 percent of the maximum reimbursement. To be eligible for 50 percent of
the maximum reimbursement for pre-trial detention only, an eligible
jurisdiction must have held the case defendant overnight for 1 or more days
in a secure facility. Pre-trial detention services do not include incarceration
time for sentenced offenders.

      According to SWBPI guidelines, SWBPI reimbursements received by
state, county, parish, tribal, and municipal governments may be used for
any lawful purpose that is in the best interest of the jurisdiction.

      The first five SWBPI application periods (from October 1, 2001, to
March 31, 2004) were reimbursed at 100 percent of the maximum amount
requested. OJP did not make any reimbursements for the 4th quarter of
FY 2004 because all of the SWBPI funds appropriated for the fiscal year had
already been disbursed. As a result, beginning in FY 2005 BJA officials
divided the funds across each quarter with each jurisdiction receiving an
equal percentage of the amount determined available for each quarter.25

Case Eligibility

     To be eligible for reimbursement under the SWBPI program, each case
submitted must meet the following criteria.

   •   The case must be federally initiated. A federally initiated case
       results from a criminal investigation or an arrest involving federal law
       enforcement authorities for a violation of federal criminal law. This
       may include investigations resulting from multi-jurisdictional task
       forces.



       25
         For the 3rd quarter of FY 2004, San Diego, California, and Brooks County, Texas,
received 100-percent reimbursement while the remaining five sites included in our audit
received 81 percent reimbursement. For the quarters ended December 31, 2004, March 31,
2005, June 30, 2005, September 30, 2005, December 31, 2005, March 31, 2006, June 30,
2006, and September 30, 2006, SWBPI recipients received pro-rata reimbursements of
49.29 percent, 44.08 percent, 47.40 percent, 50.16 percent 53.18 percent, 47.61 percent,
43.09 percent, and 44.05 percent, respectively.



                                        -5-
   •   The case must be declined and referred. This occurs when a
       U.S. Attorney or federal law enforcement official decides not to pursue
       federal criminal charges against a defendant (declination) and requests
       that a state or local jurisdiction prosecute the defendant for violating
       state or local criminal statutes (referral). Referred cases are eligible
       for SWBPI reimbursement regardless of whether the case was formally
       declined and referred by a U.S. Attorney, or through a blanket
       declination-referral policy, an “accepted federal law enforcement
       practice,” or by federal prosecutorial discretion.26

   •   The case must be prosecuted by a state or local jurisdiction. If
       the state or local jurisdiction reviews the case but decides not to
       prosecute, then the case is not eligible for reimbursement.

   •   The case must be disposed of during an eligible reporting
       period. The eligible reporting period is the quarter in which the case
       was disposed and case disposition refers to the time between a
       suspect’s arrest and the resolution (e.g., dismissal, plea, conviction,
       etc.) of the criminal charges through a county or state judicial or
       prosecutorial process. Disposition does not include incarceration time
       for sentenced offenders or time spent by prosecutors on judicial
       appeals.

       Public Law 106-246 provided FY 2001 funding to state, county, parish,
tribal, and municipal governments to reimburse them for costs associated
with the prosecution and pre-trial detention of federally initiated illegal
immigration and drug and alien smuggling cases that were declined by the
U.S. Attorneys offices and instead referred to state and local jurisdictions.
However, none of the subsequent appropriations limit the types of federally
initiated cases that are allowable for reimbursement. As a result, any
federally initiated case that is declined by the U.S. Attorneys offices and
subsequently prosecuted by an eligible state or local jurisdiction is allowable
for reimbursement.

      Additionally, the jurisdiction’s Chief Executive Officer (CEO) or
designee must certify for quarterly SWBPI applications that the “application
does not contain payment claims for cases already fully reimbursed by

       26
           An accepted federal law enforcement practice is an understanding between the
federal law enforcement agencies and the USAO. Declination-referrals through an accepted
federal law enforcement practice result from the fact that through communication federal
law enforcement agencies obtain an understanding of which cases the USAO will or will not
prosecute. Through this understanding, those cases that federal law enforcement agencies
know the USAO will not prosecute are referred directly to the state or local jurisdiction
without obtaining a declination from the USAO.



                                        -6-
federal funds, or when combined with other federal reimbursement, grant,
or payment funds, does not make payment claims in excess of 100 percent
of the cost of prosecuting and or detaining case defendants in the reporting
period.” The SWBPI guidelines also state that, at “submission, the CEO or
designee certifies that the total application amount, when combined with
other federal funds . . . does not exceed 100 percent of the jurisdiction’s
annualized costs for prosecution and or pre-trial detention services.”

       We found that there is a discrepancy between the certification on the
SWBPI application and the certification requirement in the SWBPI guidelines.
The application requires that federal funds cannot exceed 100 percent of the
costs for the reporting period (i.e., the quarter) while the guidelines require
that federal funds cannot exceed 100 percent of the annualized costs.
Additionally, it is unclear whether or not prosecution and pre-trial detention
costs should be considered separately or combined when determining if
federal funds exceed costs. As a result, in conducting our audit we used the
least restrictive interpretation of the guidelines and considered that federal
funds cannot exceed the combined annualized prosecution and pre-trial
detention costs for SWBPI cases.

Recent Guidance

      Our audit generally covered SWBPI reimbursements awarded from
FYs 2002 through 2006. To assess the program, we used the SWBPI
guidelines in effect during the period covered by our audit. However, it
should be noted that in July 2007 OJP updated the SWBPI guidelines and
made the following changes.

   •   The new guidelines no longer state that recipients cannot receive
       reimbursements in excess of 100 percent of their actual annualized
       costs. Nonetheless, at the time SWBPI reimbursement applications
       are submitted the jurisdiction’s CEO or designee is still required to
       certify that “This application does not contain payment claims for cases
       already fully reimbursed by federal funds, or when combined with
       other federal reimbursement, grant, or payment funds, does not make
       payment claims in excess of 100 percent of the cost of prosecuting and
       or detaining case defendants in the reporting period.”

   •   The July 2007 guidelines do not contain the statement that when a
       case is submitted under the “both” category, the prosecution timeline
       takes precedence in determining the case reimbursement category.
       However, the OJP application still allows for cases to be submitted
       under the “both” category rather than requiring that prosecution and
       pre-trial detention reimbursements be submitted separately.


                                    -7-
   •   The July 2007 guidelines specify that new cases resulting from
       probation or parole violations and revocation hearings resulting from a
       previously reimbursed SWBPI case are not eligible for reimbursement.
       Further, extradition cases are also not eligible for reimbursement.
       Although none of these types of cases would have been eligible for
       reimbursement under the previous guidelines the revised guidelines
       ensure that jurisdictions are aware of the fact that these types of
       cases are ineligible.

Additional Federal Prosecution and Detention Funding

       We identified three major federal programs that provide funding to
state and local jurisdictions for prosecution and detention services that may
partially duplicate the objectives of the SWBPI program. These programs
are the Office of National Drug Control Policy’s (ONDCP) High Intensity Drug
Trafficking Area (HIDTA) Drug Prosecution Initiatives, OJP’s Edward Byrne
Memorial Justice Assistance Grant Program (Byrne Grant Program), and the
U.S. Department of Homeland Security, Bureau of Immigration and Customs
Enforcement (DHS ICE) State Criminal Alien Assistance Program (SCAAP).

High Intensity Drug Trafficking Area Drug Prosecution Initiatives

       HIDTA provides assistance to federal, state, and local law enforcement
entities operating in areas most adversely affected by drug trafficking. In
FY 2006, HIDTA funding totaled $224.7 million, of which $7 million was
budgeted for locally designed strategies for prosecution. The HIDTA
Prosecution Initiative is an optional initiative for local HIDTAs to provide
state and local governments funding to cover salaries and some fringe
benefits for prosecutors to work on HIDTA cases. The possibility for
duplicate funding occurs when HIDTA drug cases prosecuted fully or in part
by a HIDTA-funded prosecutor are submitted for SWBPI reimbursement.

Edward Byrne Memorial Justice Assistance Grant Program

       The Byrne Grant Program is a partnership among federal, state, and
local governments to create safer communities. BJA is authorized to award
grants to states for use by states and units of local government to improve
the functioning of the criminal justice system, with emphasis on violent
crime and serious offenders. The Byrne Grant Program allows states, tribes,
and local governments to support a broad range of activities to prevent and
control crime based on their own local needs and conditions. The Byrne
Grant Program affords agencies the flexibility to prioritize and place justice
funds where they are needed most. The possibility for duplicate funding



                                    -8-
occurs when jurisdictions receive both SWBPI prosecution reimbursements
and Byrne prosecution funds for the same case.

State Criminal Alien Assistance Program

       BJA administers SCAAP in conjunction with the DHS ICE. SCAAP
provides federal payments to states and localities that incurred correctional
officer salary costs for incarcerated undocumented criminal aliens. To apply
for SCAAP funding, the jurisdictions must submit inmate data files including
identifiable information on the inmate, which is used to determine SCAAP
eligibility for each inmate. The total inmate days and total correctional
officer salary costs are utilized in determining the per diem cost used to
calculate inmate reimbursements. SWBPI recipients are encouraged to
apply for SCAAP funding with the knowledge that the total application
amount, when combined with other federal funds provided to the jurisdiction
for that reporting period, does not exceed 100 percent of the jurisdiction’s
annualized costs for pre-trial detention services. The possibility for duplicate
funding occurs when jurisdictions receive both SWBPI pre-trial detention
reimbursements and SCAAP funding for the same incarcerated
undocumented criminal alien.

Prior Reports

       Prior to the initiation of this audit, the OIG conducted three audits of
individual SWBPI recipients to determine if SWBPI reimbursement requests
submitted by the jurisdictions were allowable, supported, and in accordance
with applicable laws, regulations, guidelines, and terms and conditions of the
SWBPI program. The three audits examined the: (1) New Mexico
Department of Public Safety (New Mexico DPS); (2) Yuma County Attorney’s
Office, Arizona (Yuma County); and (3) Maricopa County Attorney’s Office,
Arizona (Maricopa County).27 These SWBPI audits revealed dollar-related
findings totaling over $1.6 million. Specifically, the prior reviews identified
the following.

    •   The New Mexico DPS received reimbursements totaling $1,098,036 for
        ineligible cases. Additionally, the New Mexico DPS did not adequately
        monitor the state judicial districts’ requests for reimbursements to
        ensure the cases were allowable, supported, and in compliance with
        the SWBPI guidelines, and did not require the state judicial districts to
        sign assurances as to the accuracy of requests for reimbursement.


        27
             Our audit of the New Mexico DPS included the 2nd, 3rd, and 11th Judicial
Districts.



                                            -9-
   •   Yuma County received reimbursements totaling $84,191 for ineligible
       cases and $200,147 for unsupported cases. It also requested
       reimbursements totaling $17,500 for ineligible cases that had not yet
       been paid. Further, Yuma County did not maintain a list of cases
       supporting the reimbursements requested.

   •   Maricopa County received reimbursements totaling $16,409 for
       ineligible cases and $176,948 for unsupported cases. It also
       requested reimbursements totaling $10,000 for unsupported cases
       that had not yet been paid. Additionally, Maricopa County failed to
       maintain a number of supporting case files for the required 3-year
       record retention period.

       Additionally, for the past 8 years grant management has been
identified by the Office of the Inspector General (OIG) as one of DOJ’s top
10 management and performance challenges. Specifically, the OIG has
reported that grant management continues to be a challenge for the
following reasons:

   •   OIG reviews continue to find that many grantees do not submit
       required financial and progress reports or do not submit them in a
       timely fashion;

   •   Numerous deficiencies continue to be found in DOJ’s monitoring of
       grantee activities;

   •   OIG audits found that grant funds were not regularly awarded in a
       timely manner and that grantees were slow to spend available monies;
       and

   •   OIG audits of grants have resulted in significant dollar-related findings.

     Although SWBPI is a reimbursement program rather than a grant
program, in our judgment the same concerns related to OJP’s management
and oversight of the program exist.

Audit Approach

       Our audit of the SWBPI program sought to:

   •   Evaluate OJP’s administration and management of SWBPI
       reimbursements;




                                    - 10 -
   •   Identify additional federal programs with overlapping objectives; and

   •   Determine if SWBPI reimbursement requests submitted by eligible
       jurisdictions are allowable, supported, and in accordance with
       applicable laws, regulations, guidelines, and terms and conditions of
       the SWBPI program.

       The audit generally covered, but is not limited to, SWBPI
reimbursements awarded from FYs 2002 through 2006. Audit work was
conducted at OJP; ONDCP; the Bureau of Alcohol, Tobacco, Firearms, and
Explosives (ATF); the Drug Enforcement Administration (DEA); the Federal
Bureau of Investigation (FBI); EOUSA; and the following selected SWBPI
recipients: (1) New Mexico DPS; (2) Yuma County; (3) Maricopa County;
(4) El Paso County Auditor’s Office, Texas (El Paso County); (5) San Diego
District Attorney’s Office, California (San Diego); (6) Brooks County, Texas
(Brooks County); and (7) City and County of San Francisco, California (San
Francisco). Additional information related to the audit objectives, scope, and
methodology is contained in Appendix I.




                                   - 11 -
This page intentionally left blank.




         - 12 -
                 FINDINGS AND RECOMMENDATIONS

I.       ADMINISTRATION AND OVERSIGHT OF REIMBURSEMENTS

         Our audit results revealed that OJP is not adequately overseeing
         the SWBPI program. Applicants are not required to provide any
         documentation supporting reimbursement requests. In addition,
         OJP was not reviewing SWBPI reimbursement applications for
         accuracy and was not conducting any monitoring activities to
         determine the eligibility of cases submitted for reimbursement.
         Additionally, we found that approved reimbursements were not
         linked to actual costs incurred by the jurisdictions to prosecute
         federally declined-referred criminal cases. Moreover, none of the
         seven jurisdictions included in our audit maintained any
         documentation to support costs associated with SWBPI cases
         submitted for reimbursement. Our analyses determined that
         $49.78 million in SWBPI reimbursements were in excess of
         supported annualized costs. Because SWBPI is intended to
         reimburse states and localities for costs they actually incur, in
         our judgment OJP needs to do more to ensure that claimed
         amounts are based on actual costs.

     To be eligible for reimbursement under the SWBPI program, each case
submitted must meet the following criteria.

     •   The case must be initiated by a federal law enforcement agency.

     •   The case must be declined for federal prosecution and referred to the
         local jurisdiction for prosecution.

     •   The case must be prosecuted by a state or local jurisdiction.

     •   The case must be disposed of during an eligible reporting period.

      However, we found that OJP does not adequately oversee SWBPI
reimbursements. Specifically, (1) no supporting documentation is required,
(2) the applications are not reviewed for eligibility, and (3) no monitoring of
SWBPI recipients occurs.




                                     - 13 -
SWBPI Program Oversight

Supporting Documentation Not Required

       Pursuant to the SWBPI guidelines, SWBPI applicants are required to
list the total number of cases in each of the three major categories based on
the types of services provided: (1) prosecution only, (2) pre-trial detention
only, and (3) both prosecution and pre-trial detention. However, OJP does
not require SWBPI applicants to provide documentation supporting the
number of cases submitted for reimbursement through the electronic
application. In our judgment, OJP cannot effectively oversee the SWBPI
program without requiring the applicants to provide some documentation in
support of reimbursement requests. Further, most of the unallowable and
unsupported reimbursements totaling $15.57 million, or 28 percent of the
total reimbursements audited, identified in our seven external audits
discussed in Finding III, could have been avoided if OJP required applicants
to submit supporting documents.28

       At a minimum, OJP should require SWBPI recipients to submit a list of
cases in support of the reimbursement requests. This list should include
sufficient information to verify the eligibility of the cases submitted for
reimbursement, including: (1) case number, (2) defendant name, (3) arrest
date, (4) disposition date, (5) initiating federal law enforcement agency, and
(6) referring federal agency. Additionally, for pre-trial detention
reimbursements the case list should include the defendants booking and
release dates. This is consistent with the requirements of other
reimbursement programs administered by OJP, such as SCAAP that requires
a list of inmate names, identifying information, and the length of detention.

Reimbursement Requests Not Reviewed

       Without requiring, at a minimum, a list of cases submitted for
reimbursement and information related to case eligibility, OJP is unable to
review reimbursement applications for accuracy and to determine the
eligibility of cases submitted for reimbursement.

     In our judgment, in addition to requiring a list of cases in support of
reimbursement requests, OJP should also review reimbursement requests

       28
           It should be noted that the dollar-related findings identified in our reviews of the
seven SWBPI recipients were addressed in separate external audit reports. Thus, we are
not offering any recommendations in this report specific to the $15.57 million in unallowable
and unsupported reimbursements and $27,500 in funds to be put to better use.




                                          - 14 -
and the supporting case list to determine if the number of cases submitted
for reimbursement is accurate and that all cases submitted are eligible for
reimbursement. Again, this is consistent with the requirements of other
reimbursement programs administered by OJP, such as SCAAP for which the
reimbursement request is verified by DHS ICE to determine if the inmates
are eligible for reimbursement in accordance with the SCAAP criteria.

Monitoring Activities Not Conducted

       Although SWBPI recipients are required to maintain documentation
supporting the reimbursement requests for 3 years from the date the
application was approved, we found that OJP did not conduct any monitoring
activities of SWBPI reimbursement recipients. For its traditional grant
programs, OJP is required to devote resources to on-site monitoring reviews
to verify that sufficient documentation is available to support grant-related
activities and that progress is being made towards performance
requirements. OJP is also required to conduct remote reviews of grantee
information to verify the accuracy and quality of information submitted by
grantees regarding financial and program activities. Although SWBPI is not
a grant program, in our judgment the same concerns that the OIG has
previously reported regarding OJP’s management and oversight of grant
programs applies to the SWBPI program.

      In our judgment, OJP should conduct monitoring activities of SWBPI
recipients to: (1) ensure compliance with the programmatic, administrative,
and fiscal requirements of relevant statutes, regulations, policies, and
guidelines; (2) provide guidance on OJP policies and procedures, program
requirements, general federal regulations, and basic programmatic,
administrative, and reporting requirements; and (3) identify and resolve
problems that may impede the effective administration of the program.

      OJP’s policy to not require supporting documentation for
reimbursement applications and its failure to perform monitoring activities of
SWBPI participants place SWBPI funding at a high risk of misuse. We
believe such conditions more easily allow for unsupported and unallowable
requests for reimbursements.




                                  - 15 -
External Audits Identified Unallowable and Unsupported Reimbursements

      We conducted a series of seven audits covering SWBPI
reimbursements totaling $55.11 million awarded from FYs 2002 through
2006. The seven SWBPI recipients audited were: (1) New Mexico DPS;
(2) Yuma County; (3) Maricopa County; (4) El Paso County; (5) San Diego
(6) Brooks County; and (7) San Francisco. These audits revealed OJP does
not adequately oversee the SWBPI program. We found unallowable and
unsupported reimbursements totaling $15.57 million, which equates to
28 percent of the total reimbursements audited. Additionally, we identified
$27,500 in funds to be put to better use.29 Specifically, we identified:

   •   unsupported reimbursements totaling $5.41 million for which the
       number of cases submitted on the electronic applications exceeded the
       number of cases on the detailed list provided by the recipient in our
       audit;

   •   2,133 cases that were not eligible for reimbursement under the SWBPI
       guidelines received reimbursements, resulting in $10.18 million in
       questioned costs and funds to be put to better use;

   •   two jurisdictions – Yuma County and San Francisco – did not maintain
       a list of cases submitted for reimbursement, and San Francisco’s
       SWBPI submissions were based on estimates, not specific SWBPI
       eligible cases actually prosecuted.30

      The results of our audits are discussed in detail in Finding III.
However, the significant dollar-related findings we identified further support
our conclusion that OJP does not adequately oversee the SWBPI program.

SWBPI Reimbursement Not Linked to Actual Costs

      We found that SWBPI reimbursement categories and corresponding
reimbursement amounts were not based on actual costs. On each quarterly
application the jurisdiction’s CEO or designee must certify that the total
application amount, when combined with other federal funding, does not

       29
        The dollar-related findings identified in our reviews of the seven SWBPI recipients
were addressed in separate external audit reports. Thus, we are not offering any
recommendations in this report specific to the $15.57 million in unallowable and
unsupported reimbursements and $27,500 in funds to be put to better use.
       30
          San Francisco attempted to recreate a master case list, but upon reviewing a
sample of cases we determined that none of the cases on the list were federally initiated.
Yuma County was able to recreate a list of cases submitted for reimbursement.



                                         - 16 -
exceed 100 percent of the jurisdiction’s annualized costs for SWBPI
prosecution and pre-trial detention services. Further, the CEO or designee
must certify that the SWBPI claim has been adjusted to account for
additional prosecution and pre-trial detention funding received through other
federal programs.

      We interviewed OJP officials to determine the basis for the
reimbursement categories and corresponding reimbursement amounts.
However, OJP could not provide documentation to demonstrate what actions
were taken in creating the reimbursement categories and corresponding
reimbursement amounts. Further, OJP was not able to provide
documentation to support the basis for its uniform payment per case
schedule. We also found that the OJP personnel responsible for
administering the SWBPI program were not aware of the basis used in
determining the reimbursement categories and amounts.

       We were able to determine that during FYs 2000 and 2001 when the
SWBPI program was administered by EOUSA, each participant was required
to analyze actual costs in various categories and develop a unique,
jurisdiction-specific cost per case as the basis for the reimbursement
agreement. We consider this a best practice to ensure that reimbursements
most accurately reflect actual costs.

      However, according to correspondence provided to us by OJP from a
former SWBPI official, when the administration of the SWBPI program was
transferred to OJP, OJP planned to formulate the uniform cost-per-case
reimbursement schedule. The reimbursement schedule was to be based
upon information and feedback from U.S. Attorneys, and state and local
criminal justice professionals.

       Based on OJP’s inability to provide any support or justification for its
uniform payment per case schedule, we were concerned that the
reimbursement categories and corresponding amounts may not accurately
reflect the actual costs to prosecute and detain SWBPI defendants. This is
particularly important because, as stated previously, the FY 2002
Appropriations Act and all subsequent appropriations identify SWBPI as a
reimbursement program.

      We conducted limited testing at the seven jurisdictions included in our
audit to determine the correlation between reimbursement categories and
actual costs for prosecution and detention. We found that reimbursements
are not based on actual costs incurred by the jurisdictions to prosecute
federally declined-referred criminal cases. Specifically, we found that:



                                    - 17 -
  •   None of the seven jurisdictions included in our audit maintained any
      documentation to support prosecution and pre-trial detention costs for
      SWBPI cases. However, the jurisdictions were able to provide us with
      sufficient information to calculate pre-trial detention costs;

  •   Reimbursements for cases submitted under the “both” prosecution and
      pre-trial detention category are based on the number of days to
      prosecute the case, regardless of the length of time the defendant was
      detained;

  •   Prosecution services are reimbursed at the same amounts as pre-trial
      detention services, even though there is no evidence that these
      amounts accurately reflect the actual average prosecution and
      detention costs for each Southwest Border jurisdiction; and

  •   Reimbursements are based on the number of days the case was open
      rather than the time and effort spent on prosecuting the case.

       As a result of not linking reimbursement rates to actual costs,
jurisdictions may receive reimbursements in excess of their actual costs. In
our judgment, this is inconsistent with the stated statutory goal of
reimbursing jurisdictions for money actually expended. Moreover, as of the
4th quarter of FY 2006, SWBPI applicants only received 44 percent of the
maximum reimbursement amount because reimbursement requests
exceeded available funding, as shown in Table 3.

                            TABLE 3.
                 PRO-RATA SWBPI REIMBURSEMENTS

               QUARTER ENDED               PRO-RATA REIMBURSEMENTS
        December 31, 2004                         49.29 %
        March 31, 2005                            44.08 %
        June 30, 2005                             47.40 %
        September 30, 2005                        50.16 %
        December 31, 2005                         53.18 %
        March 31, 2006                            47.61 %
        June 30, 2006                             43.09 %
        September 30, 2006                        44.05 %
       Source: OJP




                                  - 18 -
       In our opinion, if OJP ensured that only eligible cases were reimbursed
and reimbursements were linked to the actual costs to prosecute and detain
SWBPI defendants, additional funds would be available to more fully
reimburse actual costs for eligible cases. These findings are discussed in
detail in the following sections.

Reimbursements in Excess of Supported Costs

      We conducted testing to calculate the actual annualized prosecution
and pre-trial detention costs as compared to total SWBPI reimbursements to
determine whether or not the jurisdictions received SWBPI reimbursements
in excess of their actual costs. Based on our analysis we found that SWBPI
recipients received reimbursements totaling $49.78 million in excess of
supported annualized costs, as shown in Table 4.31




      31
           See Appendix II for the detailed analysis for each site.



                                          - 19 -
                          TABLE 4.
      SWBPI REIMBURSEMENTS IN EXCESS OF SUPPORTED COSTS
                                                            32
                                    (DOLLARS IN MILLIONS)


     SITE              FY 2002      FY 2003       FY 2004   FY 2005       FY 2006   TOTAL
NEW MEXICO
                         $ 3.62      $ 4.87        $4.03     $4.41         $2.47    $19.41
DPS
BROOKS
                           1.69        1.87           .61        2.41        .92      7.49
COUNTY
SAN DIEGO                  3.41        2.19          2.02         .38      ( .20)     7.80
EL PASO
                           1.84        2.07           .68         .87        .83      6.29
COUNTY
SAN
                              -               -       .04        1.71       3.67      5.41
FRANCISCO33
YUMA COUNTY                 .50         .65           .52         .26        .41      2.34
MARICOPA
                            .42         .40           .37        ( .05)    ( .11)     1.02
COUNTY
    TOTAL              $11.48       $12.03        $8.27      $9.99        $8.00     $49.78
Scope:        Data from New Mexico DPS, Brooks County, San Diego, El Paso County,
              San Francisco, Yuma County, and Maricopa County; and OIG analysis

       The SWBPI reimbursements of $49.78 million in excess of supported
costs was predominately due to the fact that none of the jurisdictions
included in our audit tracked or maintained data supporting the costs
associated with prosecuting SWBPI cases. However, each jurisdiction was
able to provide documentation to support their actual cost per day for
pre-trial detention services. As a result, we were able to calculate the actual
annualized pre-trial detention costs for SWBPI cases. As noted above,
SWBPI is a reimbursement program and each SWBPI applicant certifies that
total federal reimbursements do not exceed 100 percent of its actual
prosecution and pre-trial detention costs for SWBPI cases.

      In our opinion, OJP should obtain sufficient cost data from each SWBPI
recipient to ensure that reimbursements are linked to actual costs associated

         32
          The analysis conducted does not include cases beyond the retention period for
which supporting documentation was no longer available. Appendix II contains detailed
analyses for each of the seven auditees.
         33
         San Francisco did not participate in the SWBPI program until FY 2004. Further,
San Francisco was unable to provide a list of cases submitted for reimbursement because its
SWBPI submissions were not based on specific cases. As a result, we questioned the entire
reimbursement received by San Francisco.



                                            - 20 -
with SWBPI cases. We do not believe it is necessary for SWBPI recipients to
create elaborate cost accounting systems to determine the actual costs for
each case. However, each recipient should, at a minimum, track and
maintain sufficient data on the costs associated with SWBPI cases to support
the certification that total federal funds received do not exceed 100 percent
of the annualized costs for its SWBPI cases. This is consistent with the
requirements of other reimbursement programs administered by OJP such as
SCAAP, which requires that recipients provide actual cost information to
determine the per day reimbursement rate.

       Specifically, SCAAP participants are required to submit actual cost data
in order to participate in the reimbursement program. Each SCAAP
participant receives reimbursements based on a per diem cost rate specific
to each jurisdiction. The total inmate days and total correctional officer
salary costs are utilized in determining the per diem cost used to calculate
inmate reimbursements for SCAAP. The total inmate days are the
cumulative number of consecutive detention days attributable to inmates
housed in the jurisdiction’s facilities during the reporting period. It includes
all inmates regardless of their status, citizenship, disposition, or length of
stay. Correctional officers include employees, officers, and contractual staff
whose primary responsibility is the control, custody, or supervision of
persons detained and incarcerated and their salary costs reflect the total
salaries and wages paid to full and part-time correctional officers. The per
diem cost is derived by dividing the jurisdiction’s total inmate days into the
total correctional officer salary costs. A hypothetical example is shown in
Table 5.

                             TABLE 5.
                SAMPLE CALCULATION OF SCAAP RATES

                                              DAILY DETENTION
                                                    RATE
              Total Salary Costs                $50,000,000
              Divided By
              Total Inmate Days                    2,000,000
                   Equals Per Diem                    $25.00
              Total Inmate Days Eligible
              for Reimbursement                      200,000
                TOTAL REIMBURSEMENT            $ 5,000,000
             Source: OJP and OIG analysis




                                    - 21 -
Analysis of SWBPI Reimbursements for the “Both” Category

      Pursuant to SWBPI guidelines, reimbursements for cases submitted
under the “both” prosecution and pre-trial detention category are based on
the number of days to prosecute the case, regardless of the length of time
the defendant was detained.

       Based on our audits of SWBPI recipients, we determined that in many
cases involving both prosecution and pre-trial detention services the
defendant was only detained for a few days. If the pre-trial detention
reimbursements for these cases were calculated separately, SWBPI
jurisdictions would only have received up to $1,250 for these cases.
However, based on the guidelines in place during the period covered by our
audit, if the length of disposition for prosecution was in the over 90 day
category, the recipient received up to $10,000 for the case ($5,000 for
prosecution and $5,000 for pre-trial detention) even though the pre-trial
detention services were for less than 15 days.

      For five of the seven sites included in our audit, we analyzed all “both”
cases submitted in the over-90 day category to determine the number of
cases for which the pre-trial detention reimbursement would have been
submitted in a different reimbursement category based on the length of
detention.34 We found that on average for 69 percent of the over 90 day
“both” cases, pre-trial detention would have been reimbursed in a lesser
category, as shown in Table 6.




      34
           The New Mexico DPS was not included in our analysis because it only submits
reimbursement requests for prosecution services. As a result, our audit only included
SWBPI reimbursements for prosecution services. SWBPI pre-trial detention reimbursement
requests for the State of New Mexico are submitted separately by the counties.
Additionally, San Francisco was not included in our analysis because it was unable to
provide a list of cases submitted for reimbursement since its SWBPI submissions were not
based on specific cases.



                                       - 22 -
                           TABLE 6.
   ANALYSIS OF PRE-TRIAL DETENTION FOR 91+ DAY BOTH CASES

                                                                           TOTAL
                           PERCENT OF      PERCENT OF     PERCENT OF     PERCENT OF
                          CASES ACTUAL    CASES ACTUAL   CASES ACTUAL   CASES ACTUAL
             NO. OF 91+   DETENTION IN    DETENTION IN   DETENTION IN    DETENTION
              DAY BOTH      1-15 DAY       16-30 DAY      31-90 DAY      LESS THAN
               CASES        CATEGORY        CATEGORY       CATEGORY      91+ DAYS
EL PASO
                 837         71.68 %            7.65 %      4.42 %        83.75 %
C O.
BROOKS CO.       664         65.36 %            1.51 %      0.15 %        67.02 %
SAN DIEGO
                 511         43.84 %            6.64 %      9.98 %        60.46 %
C O.
YUMA CO.         157         35.03 %        14.01 %         5.10 %        54.14 %
MARICOPA
                 252         26.59 %            5.95 %     17.86 %        50.40 %
C O.
 WEIGHTED
                N/A         57.00 %             5.99 %     5.87 %         68.85 %
 AVERAGE
Source: OJP, El Paso County, Brooks County, San Diego, Yuma County, Maricopa County,
        and OIG analysis

      In summary, based on the number of days the defendant was detained
in the five sites included in our analysis, the pre-trial detention
reimbursements for 50 to 84-percent of the “both” cases submitted in the
over 90 day reimbursement category, would have been submitted in a lower
reimbursement category if the reimbursements were calculated separately.
Therefore, using the “both” category does not accurately reflect pre-trial
detention costs because reimbursements are based on the number of days
to prosecute the case, regardless of the length of time the defendant was
detained. As a result, these cases received excess reimbursements for
pre-trial detention. In our judgment, OJP should eliminate the “both”
category and reimburse prosecution and pre-trial detention costs separately.

      In addition to the fact that the prosecution timeline takes precedence
in determining the reimbursement category for the “both” cases, there is no
evidence that prosecution and pre-trial detention costs are similar and
should be reimbursed at the same rate.

Analysis of Reimbursements for Pre-Trial Detention

       We found that pre-trial detention reimbursements do not accurately
reflect the average daily detention costs for each Southwest Border
jurisdiction. We obtained the daily pre-trial detention costs for six


                                       - 23 -
jurisdictions included in our audit. From this data we determined that there
was a wide range in the daily costs to detain defendants among the
jurisdictions included in our audit, as shown in Table 7.35

                                TABLE 7.
                  FY 2006 SWBPI DAILY DETENTION RATES

                                                    DAILY DETENTION
                        JURISDICTION                      RATE
                San Diego                                $110.69
                San Francisco                               88.25
                Yuma County                                 70.24
                El Paso County                              57.98
                Maricopa County                             56.23
                Brooks County                               46.00
                          Average                       $ 71.57
               Scope:   Brooks County, San Diego, El Paso County,
                        San Francisco, Yuma County, and Maricopa County

       The FY 2006 daily detention rates among the six jurisdictions ranged
from $110.69 per day in San Diego to $46.00 per day in Brooks County, a
difference of $64.69. As a result, it is clear that using the same detention
reimbursement rates for all SWBPI jurisdictions does not accurately reflect
actual costs to detain the defendants.

       In addition to the fact that there is a wide range in the daily detention
rates among the jurisdictions, we found that in general the average
detention rate based on the SWBPI reimbursement categories exceeded the
highest detention rate of the six jurisdictions included in our audit. For
example, the average daily detention reimbursement rate among the six
jurisdictions included in our audit was $71.57. However, the average daily
SWBPI detention reimbursements for the 1 to 15, 16 to 30, and 31 to 90 day
reimbursement categories were $206.98, $112.79, and $67.97 respectively.
Only in cases where the defendant was detained for more than 52 days did
the SWBPI daily detention rate of $72.12 more closely resemble the actual
average daily cost of $71.57 to detain the defendants. As noted previously,

       35
          We did not analyze pre-trial detention costs for the New Mexico DPS because it
only submits reimbursement requests for prosecution services. As a result, our audit only
included SWBPI reimbursements for prosecution services. SWBPI pre-trial detention
reimbursement requests are submitted through the State of New Mexico’s counties.



                                        - 24 -
the majority of pre-trial detention services provided for SWBPI defendants
fell into the 1 to 15 day reimbursement category. Therefore, SWBPI
pre-trial detention amounts generally exceeded the actual pre-trial detention
costs incurred by the state and local jurisdictions.

      In our judgment, the pre-trial detention reimbursement amounts
should be adjusted by OJP to more accurately reflect actual costs. This
would provide additional funding for prosecution services and provide a more
equitable distribution of SWBPI funding. Additionally, we believe pre-trial
detention reimbursements should be based on the actual number of days the
defendant was detained rather than on the broad range of days included in
the reimbursement categories. This is consistent with the requirements of
other reimbursement programs administered by OJP, such as its SCAAP for
which the reimbursement amounts are based on actual costs and the specific
number of days the inmate was incarcerated.

Reimbursements Based On Days Rather Than Time and Effort

      Finally, we found that the reimbursements are based on the number of
days the case was open rather than the time and effort spent on prosecuting
the case and the actual number of days that the defendant was detained.
SWBPI reimbursements are currently based on the length of disposition:
(1) 1 to 15 days, (2) 16 to 30 days, (3) 31 to 90 days, and (4) over
90 days.

       According to the SWBPI guidelines, case disposition refers to the time
between a suspect’s arrest and the resolution (e.g., dismissal, plea,
conviction) of the criminal charges through a county or state judicial or
prosecutorial process. However, in our judgment using the number of days
the SWBPI case is open does not accurately reflect the actual cost to
prosecute the case. We based this conclusion on the fact that each SWBPI
case varies in complexity. For example, in a simple case related to the
possession of a controlled substance by a single defendant, the prosecutor’s
time and effort may be very little as compared to a complex case with
multiple defendants. However, the trial date for both cases may be set for
more than 90 days after the defendant was arrested. Therefore, both cases
would be reimbursed at the over 90-day rate even though the actual costs
associated with prosecuting the cases were significantly less. Additionally,
prosecution services are reimbursed at the same rate for each jurisdiction
even though there is no evidence that these amounts accurately reflect the
jurisdiction’s prosecution costs. In our judgment, the prosecution
reimbursement amounts should be adjusted by OJP to more accurately
reflect the actual costs involved in prosecuting the case.



                                  - 25 -
      While the number of days the defendant is detained is an accurate
measure of the pre-trial detention costs for SWBPI cases, in our judgment
the current SWBPI reimbursement categories do not accurately reflect the
pre-trial detention costs. We based this conclusion on the fact that the
reimbursements are calculated on a broad range of days rather than the
actual number of days the defendant was detained. In many instances using
this broad range of days rather than the actual number of days can result in
reimbursements for pre-trial detention services far in excess of actual costs.
Based on the SWBPI reimbursement amounts, depending on the number of
days the defendant was actually detained, for pre-trial detention only cases
that fall into the 1 to 15 day reimbursement category, the daily SWBPI
pre-trial detention reimbursements range from $625 per day to $83 per day;
the daily pre-trial detention reimbursements for the 16 to 30 day category
range from $156.25 per day to $83 per day; and the daily pre-trial detention
reimbursements for the 31 to 90 day reimbursement category range from
$121 per day to $42. Tables 8 and 9 detail the average SWBPI pre-trial
detention reimbursements based on the actual number of days the
defendant was detained.




                                  - 26 -
                                  TABLE 8.
            CALCULATION OF EFFECTIVE DAILY DETENTION RATES
                  (1 TO 15 DAY AND 16 TO 30 DAY CATEGORIES)


      NUMBER OF DAYS           DAILY RATE          NUMBER OF DAYS         DAILY RATE
               1                  N/A36                  16                $156.25
               2                 $625.00                 17                 147.06
               3                  416.67                 18                 138.89
               4                  312.50                 19                 131.58
               5                  250.00                 20                 125.00
               6                  208.33                 21                 119.05
               7                  178.57                 22                 113.64
               8                  156.25                 23                 108.70
               9                  138.89                 24                 104.17
               10                 125.00                 25                 100.00
               11                 113.64                 26                   96.15
               12                 104.17                 27                   92.59
               13                   96.15                28                   89.29
               14                   89.29                29                   86.21
               15                   83.33                30                   83.33
            Average             $206.98               Average            $112.79
    Source: OIG analysis of SWBPI reimbursements




       36
            According to SWBPI guidelines, a case is only eligible for pre-trial detention
reimbursement if the defendant is held overnight; as a result, by definition all defendants
for eligible cases would be detained for at least 2 days.



                                          - 27 -
                             TABLE 9.
        CALCULATION OF EFFECTIVE DAILY DETENTION RATES
                     (31 TO 90 DAY CATEGORY)

NUMBER      DAILY     NUMBER     DAILY    NUMBER    DAILY    NUMBER    DAILY
OF DAYS     RATE      OF DAYS    RATE     OF DAYS   RATE     OF DAYS   RATE
   31      $120.97      46       $81.52        61   $61.48     76      $49.34
   32        117.19     47        79.79        62    60.48     77       48.70
   33        113.64     48        78.13        63    59.52     78       48.08
   34        110.29     49        76.53        64    58.59     79       47.47
   35        107.14     50        75.00        65    57.69     80       46.88
   36        104.17     51        73.53        66    56.82     81       46.30
   37        101.35     52        72.12        67    55.97     82       45.73
   38         98.68     53        70.75        68    55.15     83       45.18
   39         96.15     54        69.44        69    54.35     84       44.64
   40         93.75     55        68.18        70    53.57     85       44.12
   41         91.46     56        66.96        71    52.82     86       43.60
   42         89.29     57        65.79        72    52.08     87       43.10
   43         87.21     58        64.66        73    51.37     88       42.61
   44         85.23     59        63.56        74    50.68     89       42.13
   45         83.33     60        62.50        75    50.00     90       41.67
                Average                                                $67.97
Source: OIG analysis of SWBPI reimbursements

       As stated previously, the FY 2006 daily detention rates among the six
jurisdictions included in our audit ranged from $110.69 per day in San Diego
to $46.00 per day in Brooks County. Additionally, the average daily
detention rate for the six jurisdictions was $71.57 per day. Therefore, using
the broad range of days rather than the actual number of days for SWBPI
pre-trial detention reimbursements generally results in reimbursement far in
excess of actual costs. This is due to the majority of pre-trial detention
services provided for SWBPI defendants who fall into the 1 to 15 day
reimbursement category. This issue is further compounded by the fact that
reimbursements for SWBPI cases submitted in the “both” category are based
on the number of days it took to prosecute the case. A jurisdiction could
receive up to $5,000 for pre-trial detention services ($2,500 per day) even



                                     - 28 -
when a defendant was only held overnight and released the next day.
Therefore, basing reimbursements on a broad range of days rather than the
actual number of days the defendant was detained does not accurately
reflect pre-trial detention costs.

Conclusion

      We found the following conditions related to OJP’s administration and
oversight of its SWBPI program:

  •   Applicants are not required to provide any documentation supporting
      reimbursement requests.

  •   OJP does not review the applications for accuracy or to determine the
      eligibility of cases submitted for reimbursement.

  •   OJP does not conduct any monitoring activities of SWBPI recipients.

  •   Based on our review of seven SWBPI recipients, we found unallowable
      and unsupported reimbursements totaling $15.57 million, which
      equates to 28 percent of the total reimbursements audited and funds
      to be put to better use of $27,500. The results of our audits are
      discussed in detail in Finding III. However, the significant
      dollar-related findings we identified further support our conclusion that
      OJP does not adequately oversee the SWBPI program.

  •   Reimbursements are not based on actual costs incurred by the
      jurisdictions to prosecute federally declined-referred criminal cases.

  •   The SWBPI guidelines require the recipients to certify that total federal
      reimbursements do not exceed 100 percent of actual prosecution and
      pre-trial detention costs for SWBPI cases. However, none of the seven
      jurisdictions included in our audit maintained any documentation to
      support the costs associated with SWBPI cases submitted for
      reimbursement, although the jurisdictions were able to provide us with
      data related to the pre-trial detention costs. As a result, based on our
      analysis of the seven jurisdictions included in our audit, we found that
      SWBPI recipients received reimbursements totaling $49.78 million in
      excess of the supported annualized costs.

  •   Reimbursements for cases submitted under the “both” prosecution and
      pre-trial detention category are based on the number of days to
      prosecute the case, regardless of the length of time the defendant was
      detained. We found that on average for 69 percent of the over 90 day


                                   - 29 -
    “both” cases, the pre-trial detention would have been reimbursed at a
    lesser amount based on the number of days the defendant was
    detained.

•   Prosecution services are reimbursed at the same amounts as pre-trial
    detention services, even though there is no evidence that prosecution
    and pre-trial detention costs are similar and should be reimbursed at
    the same rate. Additionally, there is no evidence that these amounts
    accurately reflect the actual average prosecution and detention costs
    for each Southwest Border jurisdiction.

•   Based on our analysis of the daily pre-trial detention rates, we
    determined that daily detention rates among the six jurisdictions
    ranged from $110.69 per day in San Diego to $46.00 per day in
    Brooks County, a difference of $64.69 per day. We also found that the
    average daily detention reimbursement rate among the six
    jurisdictions included in our audit was $71.57. However, the average
    daily SWBPI detention reimbursements for the 1 to 15, 16 to 30, and
    31 to 90 day reimbursement categories are $206.98, $112.79, and
    $67.97, respectively.

•   The reimbursements are based on the number of days the case was
    open rather than the time and effort spent on prosecuting the case,
    which in our judgment does not accurately reflect the actual cost to
    prosecute the case.

•   Using the number of days the defendant is detained is an accurate
    measure of the pre-trial detention costs for SWBPI cases. However,
    because SWBPI reimbursements are based on a broad range of days
    rather than the actual number of days, generally reimbursements for
    pre-trial detention services far exceeds actual costs. For example, for
    pre-trial detention only cases that fall into the 1 to 15 day
    reimbursement category, the daily pre-trial detention reimbursements
    range from $625 per day to $83 per day; the daily pre-trial detention
    reimbursements for the 16 to 30 day category range from $156 per
    day to $83 per day; and the daily pre-trial detention reimbursements
    for the 31 to 90 day category range from $121 per day to $42 per day
    depending on the number of days the defendant was actually detained.
    The average daily detention rate for the six jurisdictions was only
    $71.57 per day. Therefore, using the broad range of days rather than
    the actual number of days for SWBPI pre-trial detention
    reimbursements can result in reimbursement far in excess of actual
    costs.



                                - 30 -
      All of these conditions have resulted in jurisdictions receiving
reimbursement for unsupported and ineligible cases, and thus jurisdictions
may be receiving reimbursements in excess of their actual costs. The
importance of the issues is also reinforced by the fact that, as of the 4th
quarter of FY 2006, SWBPI applicants only received 44 percent of the
maximum reimbursement amount because reimbursement requests
exceeded available SWBPI funding. Our findings demonstrate that OJP is not
adequately administering and overseeing its SWBPI program.

Recommendations

We recommend OJP:

1.   Require SWBPI recipients to submit a list of cases in support of the
     reimbursement requests. This list should include sufficient information
     to verify the eligibility of the cases submitted for reimbursement,
     including: (1) case number, (2) defendant name, (3) arrest date,
     (4) disposition date, (5) initiating federal law enforcement agency, and
     (6) referring federal agency. Additionally, for pre-trial detention
     reimbursements the case list should include the defendant booking
     date and release date.

2.   Review reimbursement requests and the supporting case list to ensure
     that the number of cases submitted for reimbursement is accurate and
     that all cases submitted are eligible for reimbursement.

3.   Conduct monitoring activities of SWBPI recipients to: (1) ensure
     compliance with the programmatic, administrative, and fiscal
     requirements of relevant statutes, regulations, policies, and guidelines;
     (2) provide guidance on OJP policies and procedures, program
     requirements, general federal regulations, and basic programmatic,
     administrative, and reporting requirements; and (3) identify and
     resolve problems that may impede the effective administration of the
     program.

4.   Require that SWBPI recipients provide and maintain data on the actual
     prosecution and detention costs for SWBPI cases.

5.   Adjust SWBPI reimbursement amounts to more accurately reflect
     actual costs based on the cost data provided by SWBPI participants.

6.   Eliminate the “both” category and require SWBPI jurisdictions to
     submit prosecution and pre-trial detention reimbursement requests
     separately.


                                  - 31 -
7.   Ensure that reimbursements for prosecution services are based on the
     time and effort spent on prosecuting the case rather than the number
     of days the case was open.

8.   Ensure that pre-trial detention reimbursements are based on the
     actual number of days the defendant was detained.

9.   Ensure that pre-trial detention reimbursements are based on the
     jurisdiction’s actual daily detention rate.




                                - 32 -
II.   ADDITIONAL FEDERAL PROGRAMS WITH OVERLAPPING
      OBJECTIVES

      Our audit found that OJP has not taken any action to identify
      potential duplicate funding between the SWBPI program and
      other federal prosecution and pre-trial detention reimbursement
      or grant programs. Additionally, we found that with the
      exception of El Paso County, Texas, none of the jurisdictions
      included in our audit, who received additional federal funding for
      prosecution and pre-trial detention services, took any steps to
      ensure that SWBPI reimbursements, when combined with
      additional federal funding, did not exceed the total cost
      associated with these cases. Further, none of the seven
      jurisdictions included in our audit maintained any documentation
      to support the costs associated with SWBPI cases submitted for
      reimbursement.

       At the time SWBPI reimbursement applications are submitted, the
jurisdiction’s CEO or designee must certify that the “. . . application does not
contain payment claims for cases already fully reimbursed by federal funds,
or when combined with other federal reimbursement, grant, or payment
funds, does not make payment claims in excess of 100 percent of the cost of
prosecuting and or detaining case defendants in the reporting period.”
Additionally, on the SWBPI application, the jurisdiction’s CEO or designee is
required to certify that they “. . . have made the necessary application
adjustments to account for my jurisdiction’s receiving reimbursement,
subsidy, or the functional equivalent thereof, through other federal grant
programs, or other reimbursable agreements with a federal agency,
including federal grant programs that indirectly award funds to the county or
state government for prosecution or detention services.”

      These guidelines, coupled with a concern raised by the ONDCP
regarding the possibility of SWBPI recipients also receiving reimbursement
for prosecution services under the HIDTA program, led us to look closely into
the possibility of duplicate funding between the SWBPI program and other
federal prosecution and detention reimbursement programs.

Additional Federal Prosecution and Detention Funding

      In addition to the SWBPI program, we identified three other major
federal programs that provide funding to state and local jurisdictions for
prosecution and detention services. These programs are the ONDCP HIDTA
Drug Prosecution Initiatives, the OJP’s Byrne Grant Program, and the DHS
ICE SCAAP. The potential exists for state and local governments to receive


                                   - 33 -
funding from these programs and the SWBPI program and duplicate federal
funding assistance on individual cases.

High Intensity Drug Trafficking Area Drug Prosecution Initiatives

      ONDCP, a component of the Executive Office of the President, was
established by the Anti-Drug Abuse Act of 1988. The principal purpose of
ONDCP is to establish policies, priorities, and objectives for the nation's drug
control program. The goals of the drug control program are to reduce illicit
drug use, manufacturing and trafficking, drug-related crime and violence,
and drug-related health consequences. To achieve these goals, the Director
of ONDCP is charged with producing the National Drug Control Strategy,
which directs anti-drug efforts and establishes a program, a budget, and
guidelines for cooperation among federal, state, and local entities.

        ONDCP also administers the HIDTA program, which provides
assistance to federal, state, and local law enforcement entities operating in
areas most adversely affected by drug trafficking.37 A central feature of the
HIDTA program is the discretion granted to HIDTA executive boards to
design and carry out activities that reflect the specific drug trafficking
threats found in each HIDTA region. In FY 2006, HIDTA funding totaled
$224.7 million, of which $7 million was budgeted for locally designed
strategies for prosecution. The HIDTA Prosecution Initiatives are an optional
initiative for local HIDTAs and their executive boards, which determine if an
initiative is needed in their area. The HIDTA Prosecution Initiatives funding
covers salaries and some fringe benefits for prosecutors to work on drug
related HIDTA cases. The possibility for duplicate funding occurs when a
state or local organization submits a SWBPI reimbursement application for a
HIDTA drug case that was prosecuted by a HIDTA-funded prosecutor.

Edward Byrne Memorial Justice Assistance Grant Program

       The Byrne Grant Program is a partnership among federal, state, and
local governments to create safer communities. Byrne grants afford
agencies the flexibility to prioritize and place its federal grant funds where
they are needed most. In FY 2006, Byrne grant funding totaled
$292 million.

      Byrne grant funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and information systems for criminal justice for any one or more of the

      37
         HIDTA was reauthorized in the Office of National Drug Control Policy
Reimbursement Act of 2006 (21 U.S.C § 1701 [2006]).



                                        - 34 -
following purpose areas: (1) law enforcement programs, (2) prosecution
and court programs, (3) prevention and education programs, (4) corrections
and community corrections programs, (5) drug treatment programs, and
(6) planning, evaluation, and technology improvement programs. The
possibility for duplicate funding occurs when jurisdictions receive both
SWBPI prosecution reimbursements and Byrne grant prosecution funds for
the same case.

State Criminal Alien Assistance Program

       BJA administers SCAAP in conjunction with the DHS ICE. SCAAP
provides federal payments to states and localities that incur correctional
officer salary costs for incarcerating undocumented criminal aliens who have
at least one felony or two misdemeanor convictions for violations of state or
local laws, and who are incarcerated for at least four consecutive days
during the reporting period. Due to the complex nature of immigration
status, DHS ICE makes the final decision on the status of submitted inmate
records to determine if the inmate is an undocumented criminal alien.

       To apply for SCAAP funding, the jurisdictions must submit inmate data
files – including identifiable information – on the inmate that are used to
determine SCAAP eligibility. The per diem cost is derived by dividing the
jurisdiction’s total inmate days into the total correctional officer salary costs.

       As stated in Finding I, we found that the seven entities tested during
our audit did not supply OJP with documentation supporting their SWBPI
reimbursement requests and did not maintain records tracking the actual
costs associated with SWBPI cases. Further, the CEOs for each SWBPI
recipient certified that total federal funds for SWBPI cases did not exceed
100 percent of the jurisdiction’s annualized costs. However, none of the
seven jurisdictions included in our audit maintained any documentation to
support costs associated with SWBPI cases submitted for reimbursement.
Thus none of the SWBPI recipients ensured that reimbursements did not
exceed costs. As a result, the jurisdictions included in our audit made
unsupported certifications in each quarterly SWBPI reimbursement
application that total federal funds did not exceed 100 percent of the
jurisdiction’s annualized costs as detailed in the following sections.




                                    - 35 -
Analysis of Additional Federal Prosecution Funding

      We determined that six of the seven jurisdictions included in our audit
received HIDTA, Byrne, and other federal prosecution funds totaling
$27 million, as shown in Table 10.38

                          TABLE 10.
       PROSECUTION GRANTS RECEIVED BY SWBPI RECIPIENTS


                          HIDTA             BYRNE          OTHER             TOTAL

 El Paso County          $ 2,281,578                 -    $ 2,067,520       $4,349,098

 New Mexico DPS             2,639,254                -     $6,074,948         8,714,202

 Maricopa County            1,638,836       4,699,239                -        6,338,075

 Yuma County                1,637,388       1,775,948                -        3,413,336

 San Diego                  2,394,462                -        126,856         2,521,318

 San Francisco                       -      1,862,802                -        1,862,802

 Brooks County                       -               -               -          -

        TOTAL           $10,591,518       $8,337,989      $8,269,324       $27,198,831

Source: OJP, ONDCP, and SWBPI recipients

        Between FYs 2002 and 2006, El Paso County received federal
prosecution funding totaling $4.35 million. Despite the fact that El Paso
County certified on its SWBPI applications that SWBPI reimbursements when
combined with other federal funding did not exceed 100 percent of their
costs, El Paso County could not provide any data on actual costs to
prosecute the SWBPI cases. However, El Paso County did deduct
$1.51 million from its eligible SWBPI reimbursements to account for a
portion of the additional federal prosecution funding received by the County.
Although El Paso County did not track its costs to prosecute SWBPI cases,
according to El Paso County officials the $1.51 million was deducted from
their SWBPI reimbursement requests in an attempt to ensure that federal
funding did not exceed 100 percent of the costs to prosecute SWBPI case.


      38
         The other grants include the Criminal Enterprise Unit Grant; Drug Prosecution
Grant; Rural Domestic Violence Grant; and the Community Gun Violence Program



                                         - 36 -
      Between FY 2002 and 2006, Brooks County did not receive any
additional federal prosecution funding. However, between FY 2002 and
2006, New Mexico DPS, Maricopa County, Yuma County, San Diego, and
San Francisco received federal prosecution funds totaling $8.71 million,
$6.34 million, $3.41 million, $2.52 million, and $1.86 million respectively.
Despite the fact that each of these jurisdictions certified in its SWBPI
applications that SWBPI reimbursements when combined with other federal
funding did not exceed 100 percent of their costs, none of the jurisdictions
could provide any data on actual costs to prosecute SWBPI cases.
Additionally, we found that none of these jurisdictions took any steps to
ensure that SWBPI reimbursements received for these cases did not
duplicate funding received under other federal prosecution grants.
Therefore, the possibility exists that these jurisdictions received duplicate
funding.

       As stated previously, on the SWBPI application the jurisdictions’ CEOs
or designees are required to certify that they have made the necessary
adjustments to its reimbursement request to account for any other federal
funding for prosecution or detention services. However, despite the fact that
six of the seven jurisdictions included in our audit received additional federal
funds for prosecution services, we found that with the exception of El Paso
County none of the jurisdictions have taken any action to ensure they were
not receiving duplicate federal prosecution funds. In our judgment, the
seven jurisdictions included in our audit made unsupported certifications in
each quarterly SWBPI reimbursement application that the total federal funds
provided to the jurisdiction for SWBPI cases during the reporting period did
not exceed 100 percent of the jurisdiction’s annualized costs for prosecution
services.

       As stated previously, OJP should obtain sufficient cost data from each
SWBPI recipient to ensure that reimbursements are linked to actual costs
associated with SWBPI cases. Each recipient should track and maintain
sufficient data on the costs associated with SWBPI cases to support its
certification that total federal funds received do not exceed 100 percent of
the annualized costs for its SWBPI cases. This is consistent with the
requirements of other reimbursement programs administered by OJP, such
as SCAAP, which requires that recipients provide actual cost information to
determine the per day reimbursement rate.

Analysis of Additional Federal Detention Funding

     Since the SWBPI program also includes reimbursements for pre-trial
detention services, we looked at the possibility of duplicate funding with
SCAAP. Five of the seven jurisdictions included in our audit received SCAAP


                                   - 37 -
funds totaling $95,559 for pre-trial detention services provided in SWBPI
cases submitted for reimbursement.39 Specifically,

   •   San Diego received pre-trial detention SCAAP funding totaling
       $49,232 for 433 cases that were also submitted for pre-trial detention
       reimbursement under the SWBPI program. In addition, there are
       82 SWBPI cases for which SCAAP reimbursement has been requested
       but not yet received.

   •   El Paso County received pre-trial detention SCAAP funding totaling
       $19,499 for 37 cases that were also submitted for pre-trial detention
       reimbursement under the SWBPI program. In addition, there are
       45 SWBPI cases for which SCAAP reimbursement has been requested
       but not yet received.

   •   Yuma County received pre-trial detention SCAAP funding totaling
       $21,415 for 18 cases that were also submitted for pre-trial detention
       reimbursement under the SWBPI program. In addition, there are
       three cases for which SCAAP reimbursement has been requested but
       not yet received.

   •   Maricopa County received pre-trial detention SCAAP funding totaling
       $5,413 for 14 cases that were also submitted for pre-trial detention
       reimbursement under the SWBPI program. In addition, there are
       10 cases for which SCAAP reimbursement has been requested but not
       yet received.

   •   San Francisco received SCAAP funds totaling $7,191,393. However,
       San Francisco was unable to provide a list of cases submitted for
       reimbursement because their SWBPI submissions were not based on
       specific cases. As a result, we were unable to determine if San
       Francisco received pre-trial detention SCAAP funding for any of its
       SWBPI pre-trial detention cases.

      Despite the fact that four of the seven jurisdictions included in our
audit received additional federal funds for pre-trial detention services, we
found that none of the jurisdictions have taken any action to ensure they
were not receiving duplicate SCAAP funds. In our judgment, the seven
       39
          New Mexico DPS was not included in our analysis because New Mexico DPS only
submits reimbursement requests for prosecution services. As a result, our audit only
included SWBPI reimbursements for prosecution services. SWBPI pre-trial detention
reimbursement requests for the State of New Mexico are submitted separately by the
counties. Also, Brooks County was not included in our analysis because it did not receive
SCAAP funding between FY 2002 through FY 2006.



                                        - 38 -
jurisdictions included in our audit made unsupported certifications in each
quarterly SWBPI reimbursement application that the total federal funds
provided to the jurisdiction for SWBPI cases during the reporting period did
not exceed 100 percent of the jurisdiction’s annualized costs for prosecution
and pre-trial detention services.

      We met with OJP officials to discuss the possibility of duplicate funding
between the SWBPI program and other federal programs that provide
funding for prosecution and pre-trial detention services. Based on our
discussion, we found that OJP has not taken any action to identify potential
duplicate funding between the three programs. Specifically, the OJP official
responsible for both the SWBPI program and SCAAP stated that there is not
enough information collected from SWBPI reimbursements to identify
duplicate funding.

Recommendations

We recommend OJP:

10.   Ensure that SWBPI recipients maintain sufficient documentation to
      support that SWBPI reimbursements, when combined with other
      federal prosecution and pre-trial detention funding, do not exceed
      100 percent of the costs to prosecute SWBPI cases.

11.   Ensure that SWBPI recipients make the necessary adjustments to
      SWBPI applications to account for other federal prosecution and
      pre-trial detention funding.

12.   Review SWBPI reimbursement applications to identify any potential
      duplicate funding.




                                   - 39 -
This page intentionally left blank.




            - 40 -
III.   ALLOWABILITY OF REIMBURSEMENTS

       We completed seven external audits of individual SWBPI
       recipients to determine if SWBPI reimbursements were
       allowable, supported, and in accordance with applicable laws,
       regulations, guidelines, and terms and conditions of the SWBPI
       program. Our audits covered SWBPI reimbursements totaling
       $55.11 million and identified unallowable and unsupported
       SWBPI reimbursements of $15.57 million, which equates to
       28 percent of the total reimbursements. 40 In addition, we
       identified funds to be put to better use totaling $27,500 related
       to unsupported and ineligible cases submitted for reimbursement
       that had not yet been paid.41

      Prior to the initiation of this audit, the OIG conducted audits of three
SWBPI recipients: (1) New Mexico DPS; (2) Yuma County; and (3) Maricopa
County.42 As part of the verification phase of the audit, the OIG conducted
four additional audits of: (4) El Paso County; (5) San Diego; (6) Brooks
County; and (7) San Francisco. The purpose of these audits was to
determine if SWBPI reimbursements were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI program. In conducting the audits, we determined
whether the:

   •   quarterly reimbursement requests were supported and accurate;

   •   cases were submitted for reimbursement in the correct quarters, (the
       quarter in which the case was resolved);

   •   cases were federally initiated;

   •   cases were federally declined and referred to the state or local
       jurisdiction for prosecution;

       40
          Our audit of New Mexico DPS only included SWBPI funding totaling $3,780,438
received by the 2nd, 3rd, and 11th, Judicial Districts for the period October 2003 to March
2005.
       41
         The dollar-related findings identified in our reviews of the seven SWBPI recipients
were addressed in separate external audit reports. Thus, we are not offering any
recommendations in this report specific to the $15.57 million in unallowable and
unsupported reimbursements and $27,500 in funds to be put to better use.
       42
          The 11th Judicial District is comprised of two divisions. However, our audit only
included Division I, which received 18 percent of the total SWBPI funds received by the
State of New Mexico.



                                         - 41 -
   •   cases were prosecuted by the state or county prosecutor;

   •   defendant was detained at a minimum overnight for the pre-trial
       detention cases; and

   •   reimbursement amounts were calculated correctly.

       Based on the external audits of seven individual SWBPI recipients, we
identified unallowable and unsupported SWBPI reimbursements of
$15.57 million, which equates to 28 percent of the total reimbursements. In
addition, we identified funds to be put to better use totaling $27,500 related
to unsupported and ineligible cases submitted for reimbursement that had
not yet been paid. In our judgment, the significant amount of dollar-related
findings identified during our audits of SWBPI recipients is due in part to the
fact that OJP is not adequately overseeing or monitoring the SWBPI
program. As discussed in Finding I, we found that OJP does not require
SWBPI applicants to provide documentation supporting the number of cases
submitted for reimbursement through the electronic application.
Additionally, OJP does not review the application’s accuracy or determine the
eligibility of the cases submitted for reimbursement and has not conducted
any monitoring activities of SWBPI recipients. The results of our SWBPI
audits are discussed in detail in the following sections.

Accuracy of Reimbursements

      SWBPI recipients request reimbursements of SWBPI funds through an
on-line application available on the BJA SWBPI website. Pursuant to the
SWBPI guidelines, eligible cases are reimbursed using a uniform payment
per case schedule based on the length of disposition, which is calculated
from the date of the suspect’s arrest through resolution. Resolution of the
case is defined as dismissal, conviction, or plea.

      We reviewed the reimbursement requests from all seven external
audits to determine if the number of cases claimed for each disposition
category was supported by the detailed case list obtained during fieldwork.
Based on our review, we determined that the reimbursement requests were
not always supported by the master case list, resulting in excess
reimbursements totaling $5.92 million.43
       43
          Of the $5.92 million in excess reimbursements, $5.4 million was specific to
San Francisco. Although San Francisco provided two separate lists in support of the SWBPI
cases submitted for reimbursement, according to San Francisco officials neither list was
representative of the SWBPI cases submitted for reimbursement because the SWBPI
submissions were not based on actual cases. As a result, we found that all of the SWBPI
reimbursements submitted by San Francisco were not supported.



                                        - 42 -
       We also reviewed the detailed case list to determine if the cases were
submitted in the correct quarter - the quarter in which the case was
resolved. Based on our review, we identified 339 cases that were submitted
for reimbursement in the wrong quarter, resulting in questioned costs of
$793,933.

      In our judgment, these questioned costs could have been avoided if
OJP required recipients to submit documentation in support of the
reimbursement requests. As stated in Finding I, at a minimum recipients
should be required to submit a detailed list of cases for which they are
requesting reimbursement. This is consistent with the requirements of other
reimbursement programs administered by OJP, such as SCAAP, which
requires a list of inmates, identifying information, and the length of
detention.

Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or county for prosecution. The SWBPI guidelines define
federally initiated as a case resulting from a criminal investigation or an
arrest involving federal law enforcement authorities for a potential violation
of federal criminal law. This may include investigations resulting from
multi-jurisdictional task forces, (such as HIDTA and the Organized Crime
Drug Enforcement Task Forces (OCDETF)). The SWBPI guidelines further
state that, “referred cases are eligible regardless of whether the case was
formally declined and referred by a U.S. Attorney, or through a blanket
federal declination-referral policy, an accepted federal law enforcement
practice, or by federal prosecutorial discretion.” Federally referred cases
that are declined and not prosecuted by the state or county are not eligible
for reimbursement.

       At each site, we selected and analyzed a sample of cases submitted by
the recipient to determine whether the cases were eligible for
reimbursement under the requirements of the SWBPI guidelines. We
identified 1,637 cases that were not eligible for reimbursement, resulting in
questioned costs totaling $8.28 million and funds to be put to better use
totaling $27,500. Specifically, we found:

   •   985 cases that were not federally initiated, resulting in questioned
       costs of $5,164,302 and funds to be put to better use of $17,500;




                                    - 43 -
         •   208 cases for which the recipient had not retained supporting case
             documentation resulting in questioned costs totaling $826,003 and
             funds to be put to better use of $10,000;

         •   142 cases for which the same defendant was submitted for
             reimbursement more than once resulting in questioned costs totaling
             $888,517; and

         •   302 cases submitted for pre-trial detention reimbursement for which
             the defendant was not detained overnight resulting in questioned costs
             totaling $1,399,134.

           A summary of the findings identified for each site are illustrated in
     Table 11.

                                 TABLE 11.
              SUMMARY OF FINDINGS FROM PRIOR OIG SWBPI AUDITS

                                                                         DEFENDANT
                                 NOT          RECORD       DUPLICATE        NOT
                               FEDERALLY     RETENTION     DEFENDANT     DETAINED
  SITE                         INITIATED     PROBLEMS      SUBMITTED     OVERNIGHT         TOTALS
             NUMBER OF
             CASES                203             -            4              -             207
NEW
MEXICO       QUESTIONED
DPS          COSTS 44          $706,164           -         $10,922           -          $717,086
             FUNDS TO BETTER
             USE45                 -              -             -             -                -
             NUMBER OF
             CASES                 9              -             -            16              25
YUMA         QUESTIONED
COUNTY       COSTS             $16,272            -             -          $62,919        $79,191
             FUNDS TO BETTER
             USE               $17,500            -             -             -           $17,500




             44
                Questioned Costs are expenditures that do not comply with legal, regulatory, or
     contractual requirements, or are not supported by adequate documentation at the time of
     the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
     offset, waiver, recovery of funds, or the provision of supporting documentation.
             45
                 Funds Put to Better Use are funds not yet expended that could be used more
     efficiently if management took actions to implement and complete audit recommendations.



                                             - 44 -
                                                                       DEFENDANT
                                    NOT       RECORD     DUPLICATE        NOT
                              FEDERALLY      RETENTION   DEFENDANT     DETAINED
  SITE                        INITIATED      PROBLEMS    SUBMITTED     OVERNIGHT          TOTALS
            NUMBER OF
            CASES                    3          39            -             -                42
MARICOPA    QUESTIONED
COUNTY      COSTS                 $16,409    $176,948         -             -          $193,357
            FUNDS TO BETTER
            USE                      -        $10,000         -             -             $10,000
            NUMBER OF
            CASES                   627          -          131            269             1,027
EL PASO     QUESTIONED
COUNTY46    COSTS             $3,768,750         -        $848,250     $1,272,500     $5,889,500
            FUNDS TO BETTER
            USE                      -           -            -             -                 -
            NUMBER OF
            CASES                   12           9            1            15                37
SAN DIEGO   QUESTIONED
            COSTS                 $69,116     $27,010      $5,000        $56,250       $157,376
            FUNDS TO BETTER
            USE                      -           -            -             -                 -
            NUMBER OF
            CASES                   131         160           6             2                299
BROOKS      QUESTIONED
COUNTY      COSTS                 $587,591   $622,045     $24,345        $7,465       $1,241,446
            FUNDS TO BETTER
            USE                      -           -            -             -                 -
            NUMBER OF
            CASES                    -           -            -             -                 -
SAN         QUESTIONED
FRANCISCO   COSTS                    -           -            -             -                 -
            FUNDS TO BETTER
            USE                      -           -            -             -                 -
             TOTAL NUMBER
                OF CASES            985        208          142           302              1637
                 TOTAL
 TOTALS       QUESTIONED
                 COSTS        $5,164,302     $826,003    $888,517     $1,399,134      $8,277,956
              TOTAL FUNDS
             TO BETTER USE    $     17,500   $ 10,000         -             -         $      27,500
     Source: Prior OIG SWBPI audits




            46
              The questioned costs for El Paso County are based on the unallowable amounts
     requested, not received.



                                             - 45 -
Feedback From SWBPI Recipients

      At each of the seven sites included in our audit, we asked officials for
feedback on OJP’s administration of the SWBPI program. Officials at all
seven sites stated that OJP has not provided any training on the SWBPI
guidelines. Additionally, four of the recipients stated that they had trouble
understanding the guidelines and one recipient stated that it thought it
understood the guidelines until we conducted our audit.

       We also asked officials in each of the seven SWBPI sites if there was
anything unclear about the SWBPI program that hindered its success. The
officials provided the following responses:

   •   The guidelines are open for interpretation.

   •   There is a lack of training.

   •   Case lists should be submitted with applications.

   •   No alerts are given as to when billing periods are open.

   •   No advance notice is given on when payments will be made.

   •   No advance notice is given as to how much the payment will be.

      Based on the results of our external audits and the comments we
received in the seven jurisdictions, in our judgment OJP also needs to
provide training to the participating jurisdictions to help clarify the SWBPI
guidelines.

Recommendation

We recommend OJP:

13.    Provide training to the participating jurisdictions on the SWBPI
       guidelines.




                                      - 46 -
               STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of OJP’s administration of the
SWBPI program, we considered OJP’s internal controls for the purpose of
determining our auditing procedures. The evaluation of OJP was not made
for the purpose of providing assurance on the internal control structure as a
whole. However, we noted certain matters that we consider reportable
conditions under the generally accepted Government Auditing Standards.47

Finding I

   •   OJP does not adequately oversee the SWBPI program.

   •   Applicants are not required to provide any documentation supporting
       reimbursement requests.

   •   OJP does not review the applications for accuracy or conduct any
       monitoring activities to determine the eligibility of cases submitted for
       reimbursement.

   •   Reimbursements are not based on actual costs incurred by the
       jurisdictions to prosecute federally declined-referred criminal cases.

   •   None of the seven jurisdictions included in our audit maintained any
       documentation to support costs associated with SWBPI cases
       submitted for reimbursement.

Finding II

   •   OJP has not taken any action to identify potential duplicate funding
       between the SWBPI program and other federal prosecution and
       pre-trial detention reimbursement or grant programs.

      Because we are not expressing an opinion on OJP’s internal control
structure as a whole, this statement is intended solely for the information
and use of OJP in administering the SWBPI program.




       47
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in our
judgment, could adversely affect OJP’s ability to administer the SWBPI program.



                                           - 47 -
This page intentionally left blank.




            - 48 -
           STATEMENT ON COMPLIANCE WITH LAWS
                    AND REGULATIONS

      As required by the Government Auditing Standards, we tested OJP’s
records and documents pertaining to the SWBPI program to obtain
reasonable assurance OJP complied with laws and regulations that, if not
complied with, in our judgment could have a material effect on the
administration of the SWBPI program. Compliance with laws and regulations
applicable to the SWBPI program is the responsibility of OJP management.
An audit includes examining, on a test basis, evidence about compliance
with laws and regulations. At the time of this audit, the pertinent legislation
could be found in: Pub. L. No. 107-77 (2001), the Departments of
Commerce, Justice, and State, the Judiciary, and Related Agencies
Appropriations Act, 2002, and all subsequent SWBPI appropriations.

      Except for the issues discussed in the Findings and Recommendations
section of this report, nothing came to our attention that caused us to
believe that OJP management was not in compliance with the federal
regulations governing the SWBPI program listed above.




                                   - 49 -
This page intentionally left blank.




         - 50 -
                                                                            APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of the audit were to: (1) evaluate OJP’s administration
and management of SWBPI reimbursements; (2) identify additional federal
programs with overlapping objectives; and (3) determine if SWBPI
reimbursement requests submitted by eligible jurisdictions are allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the SWBPI program.

      We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were necessary to accomplish the
audit objectives. The audit generally covered, but is not limited to, SWBPI
reimbursements received during the period FYs 2002 through 2006. Audit
work was conducted at OJP, ONDCP, ATF, DEA, FBI, EOUSA and the
following selected SWBPI recipients: (1) New Mexico DPS; (2) Yuma County,
Arizona; (3) Maricopa County, Arizona; (4) El Paso County, Texas; (5) San
Diego, California; (6) Brooks County, Texas; and (7) San Francisco,
California. 48

      To evaluate the effectiveness of OJP’s administration and oversight
over SWBPI reimbursements, we assessed the processes used by OJP for
reviewing and approving applications, reimbursing funds, and monitoring
recipients. Specifically, we:

   •   identified the SWBPI guidelines and determined whether the criteria
       was complete and well-defined,

   •   evaluated OJP’s process for verifying the eligibility and accuracy of
       cases submitted for reimbursement,

   •   evaluated OJP’s process for monitoring SWBPI recipients,

   •   assessed the quality of guidance provided by OJP to ensure critical
       program requirements are understood and met by recipients,

   •   coordinated with the U.S. Attorneys and federal law enforcement
       agencies and examined their declination-referral policies along with
       their working relationship with the state and local law enforcement,

       48
         Our audit of New Mexico only included SWBPI funding received for the period
October 2003 to March 2005 and it included the 2nd, 3rd and 11th judicial districts of the
New Mexico DPS.



                                         - 51 -
  •   assessed the accuracy of the reimbursement amounts and categories,

  •   reviewed recipient data to determine the combined federal
      reimbursement amounts received did not exceed 100 percent of the
      jurisdictions annualized costs for prosecution and pre-trial detention
      services, and

  •   reviewed recipient data to determine the dollar amounts jurisdictions
      would have received if the prosecution and pre-trial detention services
      were calculated separately.

  To identify any potential duplicate funding sources, we:

  •   coordinated with ONDCP to determine if its HIDTA prosecution funds
      are duplicated with SWBPI funds,

  •   coordinated with OJP to determine if SCAAP detention funds are
      duplicated with SWBPI funds,

  •   reviewed recipient data to determine if HIDTA funds and other federal
      prosecution funds are being requested for the same prosecutions, and

  •   reviewed recipient data to determine if SCAAP funds and SWBPI funds
      are being requested for the same detention services.

      To determine if SWBPI reimbursements are allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI program, we:

  •   selected a sample of SWBPI recipients and conducted audits of OJP’s
      administration of the selected recipients, and

  •   assessed the allowability of cases reimbursed in accordance with
      applicable laws, regulations, guidelines, and terms and conditions of
      the program.

     We included the work performed in prior OIG SWBPI audits in our
assessment of the allowability of cases reimbursed.




                                   - 52 -
                                                                 APPENDIX II

  SWBPI REIMBURSEMENT IN EXCESS OF SUPPORTED
                   COSTS
                               (DOLLARS IN MILLIONS)49

                                 SWBPI               SUPPORTED
                 FISCAL     REIMBURSEMENT             COSTS BY
   SITE           YEAR         RECEIVED              RECIPIENT   DIFFERENCE
                 2002           $ 3.62                   $0.00      $ 3.62
                 2003              4.87                   0.00       4.87

NEW MEXICO       2004              4.03                   0.00       4.03
   DPS           2005              4.41                   0.00       4.41
                 2006              2.47                   0.00       2.47
                 Total         $19.41                    $0.00     $19.41


                 2002            $ 1.69                  $0.00      $1.69
                 2003              1.87                  >0.01       1.87

 BROOKS          2004              0.64                   0.02       0.61
 COUNTY          2005              2.45                   0.04       2.41
                 2006              0.95                   0.03       0.92
                 Total           $7.59                   $0.09      $7.49


                 2002           $ 5.90                  $ 2.48      $3.41
                 2003              3.51                   1.32       2.19
                 2004              3.34                   1.32       2.02
SAN DIEGO
                 2005              2.57                   2.19       0.38
                 2006              2.54                   2.74      (0.20)
                 Total         $17.85                 $10.04        $7.80




   49
        Differences in the total amounts are due to rounding.



                                      - 53 -
                                  SWBPI              SUPPORTED
                  FISCAL     REIMBURSEMENT            COSTS BY
     SITE          YEAR         RECEIVED             RECIPIENT          DIFFERENCE
                   2002           $3.07                 $1.23               $1.84
                   2003            2.80                  0.73                2.07
                   2004            0.84                  0.16                0.68
   EL PASO
   COUNTY          2005            1.70                  0.82                0.87
                   2006            1.50                  0.66                0.83
                   Total          $9.90                $3.61               $6.29


                   2002           $0.00                 $0.00               $0.00
                   2003            0.00                  0.00                0.00
     SAN
 FRANCISCO,        2004            0.04                  0.00                0.04
   CITY &          2005            1.71                  0.00                1.71
   COUNTY
                   2006            3.67                  0.00                3.67
                   Total          $5.41                $0.00               $5.41


                   2002           $0.76                  0.26               $0.48
                   2003            0.86                  0.21                0.65

    YUMA           2004            0.67                  0.15                0.52
   COUNTY          2005            0.43                  0.17                0.26
                   2006            0.41                  0.00                0.41
                   Total          $3.13                $0.78               $2.34


                   2002            0.57                  0.15               $0.42
                   2003            0.57                  0.18                0.40

  MARICOPA         2004            0.51                  0.14                0.37
   COUNTY          2005            0.49                  0.55              (0.05)
                   2006            0.47                  0.58              (0.11)
                   Total          $2.61                $1.59               $1.02
    RECIPIENT TOTAL             $65.90                $16.12              $49.78
Scope:   New Mexico DPS, Brooks County, San Diego, El Paso County, San Francisco, Yuma
         County, Maricopa County, and OIG analysis




                                       - 54 -
                                                                             APPENDIX III

               SWBPI REIMBURSEMENTS BY RECIPIENT
                                    (Dollars in Millions)50

      RECIPIENT           FY02        FY03         FY04         FY05        FY06        TOTALS
       Arizona
State of Arizona         $0.43       $0.35     $ 0.49          $0.30       $ 0.20   $  1.76
Cochise Co.              >0.01        0.72       0.16           0.11         0.01      1.00
Coconino Co.               ---        0.01        ---            ---         0.44      0.45
Maricopa Co.              0.57        0.57       0.51           0.49         0.60      2.74
Navajo Co.                0.66        0.52       0.25           0.21         0.04      1.69
Pima Co.                   ---        0.20       0.05           0.02         0.17      0.43
Santa Cruz Co.            0.16        0.19       0.03           0.12         0.13      0.62
Yavapai Co.               0.37         ---        ---            ---          ---      0.37
Yuma Co.                  0.81        0.85       0.66           0.45         1.11      3.88
        Total            $3.00       $3.41     $ 2.14          $1.70       $ 2.70   $ 12.95
     California
Alameda Co.               0.13       0.01         ---           0.03        >0.01   $  0.18
Colusa Co.                 ---        ---         ---          >0.01          ---     >0.01
Contra Costa Co.          0.08       0.05         ---           0.11         0.06      0.29
Fresno Co.                0.62       0.36        0.62           0.25         0.35      2.20
Humboldt Co.               ---        ---         ---           0.21         0.30      0.51
Imperial Co.              0.45       0.70        0.32           0.23         0.25      1.95
Kern Co.                  0.31       0.51        0.15           0.13         0.15      1.24
Kings Co.                 0.49       0.61        1.75           1.07         0.73      4.64
Lake Co.                   ---        ---         ---            ---         0.17      0.17
Los Angeles Co.           3.45       2.78        0.93           2.02         1.91     11.09
Marin Co.                 0.07       0.09        0.08           0.09         0.04      0.37
Mendocino Co.             0.22       0.24        0.18           0.05         0.45      1.15
Merced Co.                0.10       0.14        0.05           0.08         0.01      0.37
Monterey Co.              0.02       0.03        0.02           0.07         0.01      0.15
Orange Co.                0.73       0.44        0.79           0.87         0.69      3.53
Riverside Co.             2.71       3.54        1.82           1.34         1.00     10.41
Sacramento Co.            0.13       0.16         ---           0.23         0.20      0.72
San Benito Co.             ---        ---         ---           0.04         0.17      0.21
San Bernardino Co.        1.29       0.85        1.27           0.72         2.47      6.60
San Diego Co.             5.90       3.51        3.47           2.59         2.54     18.00
San Francisco Co.          ---        ---        0.04           1.71         3.67      5.41
San Luis Obispo Co.       0.06       0.10         ---           0.05          ---      0.20
San Mateo Co.              ---        ---        0.24           0.26         0.35      0.86
Santa Barbara Co.          ---        ---        0.13           0.07          ---      0.20
Santa Clara Co.           0.70       0.81        0.25           0.19         0.13      2.09
Santa Cruz Co.             ---        ---         ---           0.18         0.12      0.30
Siskiyou Co.               ---        ---         ---           0.19         0.36      0.54
Sonoma Co.                0.11       0.02         ---                ---      ---      0.12
Stanislaus Co.            0.03       0.22        0.16           0.03         0.03      0.47
Tulare Co.                0.04       0.21        0.08           0.02         0.03      0.38
Ventura Co.               0.84       0.27        0.42           0.16         0.16      1.83
        Total           $18.45     $15.63      $12.78         $13.00       $16.32   $ 76.19

       50
            Differences in the total amounts are due to rounding.



                                          - 55 -
      RECIPIENT          FY02         FY03         FY04      FY05        FY06           TOTALS
     New Mexico
Bernalillo Co.             ---           0.14        0.38        0.09        0.10        0.70
Chaves Co.                   0.17        0.23      ---         ---           0.01        0.41
Curry Co.                 0.02        0.04         ---        0.11       >0.01         0.17
Dona Ana Co.               ---        1.13        1.45        0.69        0.61         3.88
Eddy Co.                  0.06        0.11         ---        0.13         ---         0.30
Grant Co.                 0.03        0.02         ---         ---         ---         0.04
Hidalgo Co.               0.02        0.06        0.04        0.02        0.05         0.19
Lea Co.                   0.05        0.32        0.01         ---         ---         0.38
Luna Co.                  0.31        0.21        0.17        0.13        0.06         0.88
State of New Mexico       3.62        4.87        4.03        4.41        2.47        19.41
Otero Co.                 0.70        0.65         ---        0.14        0.26         1.75
Roosevelt Co.            >0.01        0.01         ---       >0.01         ---         0.01
San Juan Co.              0.75        0.62        0.45        0.53         ---         2.35
Sierra Co.                0.02       >0.01         ---         ---         ---         0.02
Taos Co.                  0.02        0.05         ---         ---         ---         0.07
Quay Co.                   ---         ---         ---         ---        0.02         0.02
         Total           $5.75       $8.45      $ 6.54      $ 6.26      $ 3.59      $ 30.58
         Texas
Bexar Co.                0.15          0.20       0.17        0.13        0.12      $  0.76
Brewster Co.             0.02          ---        0.01        0.01        0.01         0.04
Brooks Co.               1.69          1.94       0.73        2.53        0.94         7.82
Cameron Co.               ---          0.38       0.35        0.16        0.17         1.06
Culberson Co.             ---          ---         ---         ---       >0.01        >0.01
Dallas Co.               0.30          0.77       0.73        0.29        0.17         2.25
Duval Co.                 ---          ---         ---        0.02        0.01         0.03
El Paso Co.              5.04          4.06       1.19        1.77        1.41        13.47
Fayette Co.               ---          0.01        ---       >0.01       >0.01         0.02
Grayson Co.              0.01          ---         ---         ---         ---         0.01
Harris Co.               0.33          0.46        ---        0.06        0.45         1.30
Henderson Co.            0.08          ---         ---         ---         ---         0.08
Hill Co.                  ---          ---         ---         ---       >0.01        >0.01
Hudspeth Co.             1.53          1.17       1.24        0.80        0.48         5.21
Jim Hogg Co.              ---          ---        0.40        0.27        0.26         0.94
Kinney Co.               0.08          0.03       0.18        0.06        0.03         0.39
Kleberg Co.              1.27          0.87       0.98        0.43        0.33         3.89
Lubbock Co.               ---          0.02       0.01         ---        0.01         0.03
Maverick Co.             0.93          0.78       0.71        0.44        0.19         3.05
McLennan Co.             0.15          0.12       0.09        0.03        0.08         0.46
Medina Co.                ---          0.01        ---         ---         ---         0.01
Presidio Co.             0.11          0.06       0.03        0.07        0.01         0.27
Travis Co.               0.09          0.20        ---         ---         ---         0.29
Tarrant Co.               ---          ---         ---         ---       >0.01        >0.01
Val Verde Co.             ---          0.02        ---         ---         ---         0.02
Zapata Co.                ---          ---         ---         ---        0.01         0.01
         Total         $11.77        $11.07     $ 6.82      $ 7.04      $ 4.71      $ 41.41
    SWBPI Totals       $38.97        $38.55     $28.28      $28.00      $27.33      $161.13
Source: Office of Justice Programs




                                          - 56 -
         APPENDIX IV




- 57 -
- 58 -
- 59 -
- 60 -
- 61 -
This page intentionally left blank




            - 62 -
                                                                 APPENDIX V

            ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE THE REPORT


1.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has implemented requirements
     that SWBPI recipients submit a list of cases in support of the
     reimbursement requests. This list should include sufficient information
     to verify the eligibility of the cases submitted for reimbursement,
     including: (1) case number, (2) defendant name, (3) arrest date,
     (4) disposition date, (5) initiating federal law enforcement agency, and
     (6) referring federal agency. Additionally, for pre-trial detention
     reimbursements the case list should include the defendant booking
     date and release date.

2.   Resolved. This recommendation can be closed when OJP provides
     documentation supporting that the SWBPI system has been modified
     to facilitate reviews of the reimbursement requests and supporting
     case information to ensure that the number of cases submitted for
     reimbursement is accurate and that all cases submitted are eligible for
     reimbursement.

3.   Resolved. This recommendation can be closed when OJP provides
     documentation supporting that programmatic and financial monitoring
     guidelines for SWBPI recipients have been developed and implemented
     to: (1) ensure compliance with the programmatic, administrative, and
     fiscal requirements of relevant statutes, regulations, policies, and
     guidelines; (2) provide guidance on OJP policies and procedures,
     program requirements, general federal regulations, and basic
     programmatic, administrative, and reporting requirements; and
     (3) identify and resolve problems that may impede the effective
     administration of the program.

4.   Resolved. This recommendation can be closed when OJP provides
     documentation supporting that the SWBPI system has been modified
     to facilitate the collection of actual prosecution and detention costs for
     SWBPI cases.




                                  - 63 -
5.    Resolved. This recommendation can be closed when OJP provides
      documentation supporting that the SWBPI system has been modified
      to ensure that SWBPI reimbursement amounts are adjusted to more
      accurately reflect actual costs based on the cost data provided by
      SWBPI participants.

6.    Resolved. This recommendation can be closed when OJP provides
      documentation supporting that the “both” category has been
      eliminated and the instructions to SWBPI jurisdictions have been
      revised to require that prosecution and pre-trial detention
      reimbursement requests be submitted separately.

7.    Resolved. This recommendation can be closed when OJP provides
      documentation supporting that the SWBPI system has been modified
      to ensure that reimbursements for prosecution services are based on
      the time and effort spent on prosecuting the case rather than the
      number of days the case was open.

8.    Resolved. This recommendation can be closed when OJP provides
      documentation supporting that the SWBPI system has been modified
      to request detention data for SWBPI applicants and ensure that
      pre-trial detention reimbursements are based on the actual number of
      days the defendant was detained.

9.    Resolved. This recommendation can be closed when OJP provides
      documentation supporting that the SWBPI system has been modified
      to ensure that pre-trial detention reimbursements are based on the
      jurisdiction’s actual daily detention rate.

10.   Resolved. This recommendation can be closed when OJP provides
      documentation supporting that new guidance has been issued to
      SWBPI recipients requiring that documentation be maintained to
      support that SWBPI reimbursements, when combined with other
      federal prosecution and pre-trial detention funding, do not exceed
      100 percent of the prosecution and detention costs for SWBPI cases.

11.   Resolved. This recommendation can be closed when OJP provides
      documentation supporting that the SWBPI system has been modified
      to better capture other federal prosecution and pre-trial detention
      funding received by SWBPI applicants to ensure that SWBPI recipients
      make the necessary adjustments to SWBPI applications to account for
      other federal funding received for SWBPI cases.




                                 - 64 -
12.   Resolved. This recommendation can be closed when OJP provides
      documentation supporting that the SWBPI system has been modified
      to facilitate the review of SWBPI reimbursement applications to
      identify potential duplicate funding.

13.   Resolved. This recommendation can be closed when OJP provides
      documentation supporting that an online training program, specific to
      the SWBPI guidelines, for the participating jurisdictions has been
      developed and implemented.




                                  - 65 -
